          United States Department of Agriculture




Office of Inspector General
Semiannual Report to Congress


Second Half
April 1, 2013-September 30, 2013




                                           Fiscal Year 2013

                                           No. 70
                                           December 2013
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—April 2013-September 2013
SUMMARY OF AUDIT ACTIVITIES
Reports Issued
   Number of Final Reports                                                                            17
     Number of Interim Reports                                                                         0
     Number of Final Report Recommendations (112 program                                             128
     improvement / 16 monetary)
     Number of Interim Report Recommendations                                                          0
Management Decisions Reached
   Number of Reports                                                                                  19
    Number of Recommendations* (137 program improvements / 20                                        157
    monetary)
Total Dollar Impact of Reports with Management Decisions (Millions)                                $911.4
     Questioned/Unsupported Costs                                                                  $424.2
     Funds To Be Put To Better Use                                                                 $487.2
SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued                                                                                       155
Impact of Investigations

     Indictments                                                                                     539
     Convictions                                                                                     253
     Arrests                                                                                         586
Total Dollar Impact (Millions)                                                                      $38.9
Administrative Sanctions                                                                             370

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2013)
1) Interagency Communication, Coordination, and Program Integration Need Improvement
Related material can be found on page 2.
2) USDA Needs to Create Strong, Integrated Internal Control Systems Across Programs
Related material can be found on pages 1, 5, 14, 15, 16, and 17.
3) Information Technology Security Needs Continuing Improvement
No work reported during this period.
4) Departmental Outreach Efforts Need to be More Transparent
No work reported during this period.
5) A Proactive, Integrated Strategy Is Necessary to Increase Agricultural Commerce and Trade
No work reported during this period.
6) Action Needed to Improve Natural Resources Stewardship
No work reported during this period.
7) Food Safety Inspection Systems Need Improved Controls
Related material can be found on page 2.
8) Identifying, Reporting, and Reducing Improper Payments Can Strengthen USDA Programs
Related material can be found on page 15.
9) USDA Needs to Increase Efforts for Appropriately Training and Preparing Human Resources
Related material can be found on page 15.
10) FNS Needs to Strengthen SNAP Management Controls
Related material can be found on pages 4, 10, and 16.
*Please refer to examples of program improvement recommendations cited on the inside back cover.
Message from the Inspector General
This Semiannual Report to Congress (SARC) covers the 6-month period ending September 30, 2013, and summarizes the
most significant accomplishments of the U.S. Department of Agriculture’s (USDA) Office of Inspector General (OIG).
During the last half of the year, our office has continued to work extensively with the Department, Congress, and other
Federal agencies to ensure the integrity and efficiency of USDA programs, safeguard the taxpayers’ investment in these
programs, and investigate those who allegedly abuse USDA programs.

During this period, we are in the process of concluding our work overseeing the $28 billion in American Recovery and
Reinvestment Act of 2009 (Recovery Act) funds provided for USDA programs. Since 2009, we have completed
78 Recovery Act audit projects, and made monetary recommendations totaling about $5 billion.

Our recent accomplishments have been significant. We conducted successful investigations and audits that led to
586 arrests, 253 convictions, $38.9 million in recoveries and restitutions, 137 program improvement recommendations,
and $911.4 million in financial recommendations. Our activities, including our Recovery Act work, are described
according to our strategic goals, as outlined in the OIG Strategic Plan for fiscal years (FY) 2010-2015:

    ·   Safety, Security, and Public Health—OIG performed notable work regarding food safety during this reporting period,
        finding that the Food Safety and Inspection Service (FSIS) needed to ensure that swine slaughter plants are not repeatedly
        violating the Federal Meat Inspection Act (FMIA). Of the 30 plants we visited, inspectors in 8 plants did not always examine
        the internal organs of carcasses in accordance with FSIS inspection requirements, nor did they take enforcement actions
        against plants that violated food safety regulations. Moreover, FSIS had not assessed whether its inspection process had
        measurably improved food safety at each plant, one of the program’s key goals.

    ·   Integrity of Benefits—OIG continues to focus much of its investigative resources on fighting fraud in the Food and Nutrition
        Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP). Since April, our work has resulted in 174 convictions
        and $20 million in monetary results. In addition, an audit reviewing how FNS authorizes and disqualifies retailers that
        participate in SNAP found that FNS needs to improve its controls for preventing unscrupulous retailers from abusing and re-
        abusing SNAP. We identified 586 owners that FNS allowed to continue participating in SNAP at other locations after being
        permanently disqualified, and 90 retail locations that had two or more firms permanently disqualified.

    ·   Management Improvement Initiatives—Although we found that USDA, in its third year of reporting high-dollar
        overpayments, significantly improved its reporting process, the Department’s report could have been more timely and
        accurate. We recommended that the Office of the Chief Financial Officer (OCFO) provide additional oversight over
        component agencies’ processes to ensure that high-dollar overpayment reports comply with USDA’s guidance. OIG is also
        responsible for investigating allegations of wrongdoing by USDA employees. As a result of an OIG investigation, a former
        Rural Development (RD) director was sentenced to 60 months in prison and 36 months of probation for wire fraud and was
        ordered to pay $3.9 million in restitution to seven water authorities and one electric authority.

    ·   Stewardship of Natural Resources—OIG’s 5-Year Strategic Plan (FY 2013-2018) no longer identifies oversight of the
        stewardship of natural resources as a separate and distinct goal. While audits and investigations into Forest Service (FS)
        and Natural Resources Conservation Service (NRCS) programs continue—and these reviews continue to involve oversight of
        the stewardship of natural resources—we have determined that the results of these reviews could be reported equally well
        under Goals 1, 2, and 3. Accordingly, we have no audits or investigations to report for this goal in this SARC reporting
        period.

OIG, like all Federal agencies, has been impacted by sequestration, the recent shut-down, and the general scarcity of
resources. Since FY 2012, OIG’s appropriations have fallen to their lowest level since FY 2008. Likewise, OIG’s staffing is
at its lowest level since the agency’s inception. Given these resource constraints, OIG will need, in the future, to focus
only on projects of the highest priority. Our productivity statistics will necessarily reflect difficult decisions about what
audits and investigations we can reasonably undertake.
As always, OIG’s team of dedicated and professional staff is committed to helping USDA improve the services it provides
American taxpayers—the accomplishments reported here are the direct results of their efforts. We appreciate the
interest and support shown by Secretary Vilsack, Deputy Secretary Harden, and their management team and look
forward to working together to reduce fraud, waste, and abuse; ensure that USDA programs are efficient and cost-
effective; and help USDA respond to the demands of a challenging budget environment.




Phyllis K. Fong
Inspector General
Contents
Safety, Security, and Public Health .......................................................................... 1
Integrity of Benefits.................................................................................................. 4
Management Improvement Initiatives ................................................................. 14
Stewardship of Natural Resources ........................................................................ 21
Appendix—Gauging the Impact of OIG ................................................................. 22
Safety, Security, and Public Health
OIG Strategic Goal 1:
Strengthen USDA’s ability to implement safety and security measures to                     Management Challenges Addressed
                                                                                           Under Goal 1
protect the public health as well as agricultural and Departmental resources
                                                                                           §   Interagency Communication,
To help USDA and the American people meet critical challenges in safety,
                                                                                               Coordination, and Program
security, and public health, OIG provides independent audits and investigations                Integration Need
in these areas. Our work addresses such issues as the ongoing challenges of                    Improvement
                                                                                           §   USDA Needs to Create Strong,
agricultural inspection activities, the safety of the food supply, and homeland                Integrated Internal Control
security.                                                                                      Systems Across Programs (also
                                                                                               under Goals 2 and 3)
                                                                                           §   Food Safety Inspection
In the second half of FY 2013, we devoted 6.7 percent of our total direct
                                                                                               Systems Need Improved
resources to Goal 1, with 100 percent of these resources assigned to critical-risk             Controls
and high-impact work. A total of 100 percent of our audit recommendations
under Goal 1 resulted in management decision within 1 year, and 85 percent of
our investigative cases resulted in criminal, civil, or administrative action. OIG
issued three audit reports under Goal 1 during this reporting period. OIG’s
investigations under Goal 1 yielded 77 indictments, 23 convictions, and
approximately $2 million in monetary results during this reporting period.

.
EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                              and AMS concurred with all recommendations. (Audit Report
FOR GOAL 1                                                            01601-0002-32, National Organic Program–Organic Milk
                                                                      Operations)
The Agricultural Marketing Service (AMS) Should Improve
the Consistency with which Organic Dairy Producers Follow             FSIS Needs to Ensure that Swine Slaughter Plants Comply
the Access to Pasture Rules for Organic Dairy Cattle                  with the Federal Meat Inspection Act (FMIA) and the
                                                                      Humane Method of Slaughter Act
OIG generally found that AMS successfully implemented the
access to pasture rule as part of its National Organic Program        FSIS’ enforcement policies do not deter swine slaughter
(NOP), but we did identify several areas where the agency             plants from repeatedly violating FMIA. OIG found that plants
could make improvements. For example, we noted that NOP               have repeatedly violated the same regulations, but
officials had not clearly defined how producers should                experienced few consequences for their actions. Of the
demarcate herds of organic milk-producing cattle, which               30 plants we visited, inspectors in 8 plants did not always
meant that some certifying agents allowed producers to add            examine the internal organs of carcasses in accordance with
cattle to organic herds, while others did not. We also noted          FSIS inspection requirements, nor did they take enforcement
that NOP needs to include organic feed brokers within the             actions against plants that violated food safety regulations.
NOP certification process to ensure that organic feed is not          As a result, there is reduced assurance that FSIS inspectors
commingled or contaminated. Since NOP relies on certifying            are effectively identifying pork that should not enter the food
agents who conduct yearly inspections of organic milk                 supply. We also reviewed 158 humane handling
operations, the program needs to consistently respond when            noncompliance records issued to the 30 plants and found
inspectors identify possible noncompliance issues with                10 instances of egregious violations where inspectors did not
organic regulations. Finally, we found that smaller organic           issue suspensions. Additionally, we found that FSIS could not
operations were often unaware of the recordkeeping                    determine whether the goals of a pilot program—the Hazard
requirements contained in rules regarding livestock                   Analysis and Critical Control Point-based Inspection Models
confinement, grazing, or the cattle’s dry matter intake. OIG          Project—were met because the agency did not adequately
made a series of recommendations to correct these issues,             oversee the program. In the 15 years since the program’s

                                                                 1
inception, FSIS did not assess whether the new inspection            industry for their services, as FSIS could not adequately
process had measurably improved food safety at each plant,           reconcile reimbursable overtime charges to industry and AMS
one of the program’s key goals. FSIS concurred with all of our       was unable to charge industry for interest on overdue
recommendations. (Audit Report 24601-0001-41, FSIS                   accounts due to problems with its accounting system. The
Inspection and Enforcement Activities at Swine Slaughter             two agencies generally agreed with our recommendations.
Plants)                                                              (Audit Report 50601-0002-31, FSIS’ and AMS’ Field-Level
                                                                     Workforce Challenges)
FSIS and AMS Could Improve How They Manage Employees
at Slaughter and Processing Plants                                   New York Farmer Sentenced for Violating Meat and Poultry
                                                                     Inspection Act
OIG found that FSIS and AMS generally managed their
workforces effectively, but that the two agencies could make         In April 2011, a farmer was referred to OIG for investigation
some improvements in how employees are managed at                    by FSIS’ Office of Investigation, Enforcement and Audit.
slaughter and processing plants. We found that FSIS                  During the course of the investigation, the farmer provided
inspectors often worked far more hours than their AMS                false statements to investigators regarding the slaughter
colleagues, a situation that could impair food safety.               practices on his property. In addition, samples of product
Recently, AMS has allowed some beef plants to use an
                                                                     slaughtered by the farmer tested positive as being
automated, camera-based system for grading meat. While
the cameras can help AMS use its staff efficiently, we               adulterated. In March 2012, in U.S. District Court, Western
question if the new system was established in a way that is          District of New York, the farmer was charged with violations
objective and transparent to all stakeholders. Since AMS             of the Meat and Poultry Inspection Act and making false
graders and FSIS inspectors often work in the same plants,           statements. He pled guilty and was sentenced in May 2013
the two agencies have a memorandum of understanding in               to 12 months of probation and ordered to pay a $500 fine.
place to cross-utilize their personnel; we found the
agreement was out of date and needed to be revisited.
Finally, both agencies could improve how they monitor or bill




                                                                 2
GOVERNMENTWIDE ACTIVITIES—GOAL 1

Participation on Committees, Working Groups and Task                  §     San Bernardino Rural Crimes Task Force and San
Forces                                                                      Bernardino Animal Cruelty Task Force. OIG is one of
                                                                            several law enforcement agencies participating on task
                                                                            forces to combat crimes in rural areas in southeastern
                                                                            California, with a special focus on animal-fighting
§   The Federal Bureau of Investigation’s (FBI) National and
                                                                            investigations.
    Local Joint Terrorism Task Forces. One OIG special agent
    is assigned full time to the national task force, and other
    special agents work with local task forces. While the
    national task force special agent attends threat briefings            ONGOING REVIEWS FOR GOAL 1
    and provides terrorist intelligence products to OIG and
    other USDA agencies and offices, local task forces work
    on matters that involve both the investigation of criminal               §   implementation of the Public Health Information
    activity and intelligence-gathering concerning individuals                   System (PHIS) for domestic inspection (FSIS),
    or entities that may have connections to terrorist activity              §   oversight of research facilities (APHIS), and
    or may provide support for terrorist activity. Overall,                  §   Plant Protection Quarantine Preclearance Program
    OIG’s participation provides an excellent conduit for                        (APHIS).
    sharing critical law enforcement intelligence and has
    broadened FBI’s and other law enforcement agencies’
    knowledge of how to conduct criminal investigations
    connected to food and agriculture.

§   FBI’s Joint Interagency Agroterrorism Working Group.
    OIG’s Emergency Response Team continues to
    participate in this working group, which develops
    protocols and procedures for FBI, the Animal and Plant
    Health Inspection Service (APHIS), and OIG to coordinate
    their response to agroterrorism.

§   U.S. Marshals Service Fugitive Task Forces. OIG agents in
    Michigan, Minnesota, Mississippi, North Dakota, and
    Ohio participate on these task forces, which were
    established under the Presidential Threat Protection Act
    of 2000. The purpose of these task forces is to locate
    and apprehend the most dangerous fugitives and assist
    in high-profile investigations. In addition to providing
    assistance in locating fugitives, task forces can provide
    help in serving warrants.

§   Arrowhead Counter-Terrorism Task Force. OIG
    participates in a group of regional law enforcement and
    emergency response providers, led by the FBI field office
    in Duluth, Minnesota, which meets monthly for training
    sessions and to share information on various terrorist
    organizations, as well as related topics such as crisis
    response scenarios.

§   Anti-Terrorism Advisory Councils. OIG participates on
    Anti-Terrorism Advisory Councils in many judicial districts
    throughout the country. These councils are umbrella
    organizations including local, State, and Federal agencies
    and private-sector security representatives that work
    with the U.S. Attorney’s Offices for their geographic
    areas to disrupt, prevent, and prosecute terrorism
    through intelligence-sharing, training, strategic planning,
    policy review, and problem-solving.
                                                                  3
Integrity of Benefits
OIG Strategic Goal 2:
Reduce program vulnerabilities and strengthen program integrity in the delivery            Management Challenges Addressed
                                                                                           Under Goal 2
of benefits to program participants
                                                                                           §   USDA Needs to Create Strong,
OIG conducts audits and investigations to ensure or restore integrity in various
                                                                                               Integrated Internal Control
USDA benefit and entitlement programs, including a variety of programs that                    Systems Across Programs (also
                                                                                               under Goals 1 and 3)
provide payments directly and indirectly to individuals or entities. Some of the
                                                                                           §   FNS SNAP Management
programs are among the largest in Government: SNAP alone accounted for                         Controls (also under Goal 3)
approximately $79 billion in FY 2013 benefits, while over $23 billion annually is
spent on USDA farm and commodity programs. Intended beneficiaries of these programs include the working poor, hurricane
and other disaster victims, and schoolchildren, as well as farmers and other rural residents. These programs support nutrition,
farm production, and rural development.

OIG is also concluding its oversight work of the $28 billion in funding USDA received under the Recovery Act. The Recovery
Act provided OIG with $22.5 million for “oversight and audit of programs, grants, and activities funded by this Act and
administered by the Department of Agriculture.” As of October 1, 2013, OIG has completed 78 Recovery Act projects. Two
projects remain and should be completed in the first quarter of FY 2014. OIG is also in the process of preparing a roll-up
report summarizing lessons learned from its Recovery Act oversight.

In the second half of FY 2013, we devoted 53 percent of our total direct resources to Goal 2, with 93.8 percent of these
resources assigned to critical/high-impact work. A total of 100 percent of our audit recommendations under Goal 2 resulted
in management decision within 1 year, and 81 percent of our investigative cases resulted in criminal, civil, or administrative
action. OIG issued four audit reports under Goal 2 during this reporting period. OIG’s investigations under Goal 2 yielded
452 indictments, 226 convictions, and about $32.7 million in monetary results during this reporting period.

.
EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                              penalties. These issues occurred because FNS has not yet
FOR GOAL 2                                                            comprehensively updated its regulations and guidance to
                                                                      reflect the changed fraud risks that accompanied the
FNS Needs to Improve How It Authorizes and Disqualifies               transition from a stamp-based benefit system to the
Retailers That Participate in SNAP                                    electronic benefit transfer system. This has led to a retailer
                                                                      authorization process with ambiguous roles and
In light of news coverage of SNAP trafficking, OIG audited the        responsibilities for different FNS divisions, inadequate
process FNS uses for authorizing, reauthorizing, and                  supervisory reviews, and fragmented access to important
disqualifying retailers that participate in SNAP. We found            documents. Finally, FNS does not require retailers to undergo
that FNS does not have clear procedures and guidance to               self-initiated criminal background checks. FNS has recently
carry out key oversight and enforcement activities to address         taken several steps to strengthen oversight—such as creating
SNAP retailer fraud, or adequate authority to prevent                 a new policy for high-risk retailers and increasing denial rates
multiple instances of fraud—either by a particular owner or           for business integrity issues—but without a proper
at a particular location. In addition, FNS regional offices put       authorization framework, problems often went undetected
their limited resources towards activities such as retailer           or unaddressed.
authorization, rather than assessing and enforcing retailer
                                                                  4
As a result, the integrity of SNAP is at risk because FNS does        Report 10099-0001-31, Natural Resources Conservation
not consistently deter trafficking. From a sample of                  Service’s Administration of Easement Programs in Wyoming)
316 locations, we found that FNS did not properly determine
$6.7 million in potential penalties, and authorized                   The Risk Management Agency (RMA) Needs to Improve How
51 ineligible store owners, who had redeemed over                     It Administers Insurance Based on the Prevented Planting
$5.3 million in benefits since 2006. In addition, we identified       Provisions
586 owners allowed to continue participating in SNAP at
other locations after being permanently disqualified, and             RMA administers the Federal Crop Insurance Program, which
90 retail locations that had two or more firms permanently            paid approximately $4.6 billion in claims from producers who
disqualified. OIG recommended that FNS comprehensively                were prevented from planting insured crops from crop years
review its policies and procedures, seek legislative change to        2008 through 2011. OIG determined that RMA needs to
retain a portion of retailer penalties, require background            improve the prevented planting provisions to be more cost
checks for retailers, strengthen internal guidance, make              effective; to encourage producers to plant a crop, when
improvements to its automated retailer data system, and               possible; and to make eligibility criteria more objective and
create and strengthen safeguards for high-risk stores. FNS            clear. Specifically, we found that, out of concern for covering
generally agreed with our recommendations. (Audit Report              a producer’s pre-planting costs in all cases, RMA set current
27601-0001-31, FNS: Controls for Authorizing SNAP Retailers)          prevented planting coverage levels above the percentages of
                                                                      guarantees that insureds needed to cover average pre-
NRCS Needs to Ensure that its Wyoming State Office                    planting costs. As a result, by establishing coverage levels
Personnel Are Knowledgeable Enough to Process Easement                that provided over $480 million in potentially excessive
Applications                                                          payments, we believe that RMA inadvertently provided
                                                                      incentives to actively encourage prevented planting claims.
In February 2013, after learning that the Wyoming State               Further, when RMA designed its policy for assigning a yield
office disregarded policy requirements, as well as specific           when a producer is prevented from planting a crop and opts
written instructions not to proceed with processing several           to not plant a second crop, it may have misinterpreted
Wetlands Reserve Program easements, NRCS conducted a                  whether being prevented from planting should impact certain
functional review of the Wyoming State office’s                       insurance calculations. Under the current policy, producers
administration of the Farm and Ranch Lands Protection                 planted a second crop on only 0.1 percent of prevented
Program, Grassland Reserve Program, and Wetlands Reserve              planting acres. Also, we found that loss adjusters did not fully
Program. NRCS subsequently pulled all easement program                document and support eligibility for over $43 million in
authority from Wyoming and initiated a remediation effort             prevented planting payments. RMA needs to improve its
on easement activity in Wyoming. NRCS then requested that             guidance to better hold approved insurance providers
OIG review the Wyoming State NRCS office’s administration             accountable and prevent acres that are regularly too wet for
of easement programs. Specifically, NRCS expressed                    crop production from receiving prevented planting coverage.
concerns over potential employee misconduct and the causes            RMA generally agreed with our recommendations. (Audit
of other serious issues noted in its recent functional review.        Report 05601-0001-31, RMA: Controls Over Prevented
                                                                      Planting)
While we did not note any indication of fraud or purposeful
misconduct, we found that NRCS needs to ensure that its               Couple Conspired to Make False Statements to the Farm
employees are sufficiently knowledgeable to carry out their           Service Agency (FSA)
duties and to strengthen oversight and accountability of
employees’ work. Specifically, both the program specialist            A husband and his estranged wife submitted false statements
responsible for processing these easements and the officials          in order to obtain a $450,000 mortgage guaranteed by FSA
responsible for supervising that employee demonstrated a              and another $100,000 mortgage directly from FSA. In
lack of critical program knowledge. We also found that NRCS           addition, they converted to their own use collateral pledged
did not have an adequate system of review in place to ensure          to secure the $100,000 FSA mortgage. In September 2012,
that employees were properly reviewed and held                        they were both charged with conspiracy to make false
accountable. As a result, the Wyoming State office approved           statements. They both pled guilty. The husband was
at least $14.1 million in easements that were not correctly           sentenced in May 2013 to 60 months’ probation and ordered
processed and did not ensure that the Government’s interest           to pay $176,005 restitution. In June 2013, his ex-wife was
in the easements would be served and secured. NRCS agreed             sentenced to 60 months’ probation, to include 6 months’
with our finding and accepted all recommendations. (Audit

                                                                  5
home confinement, and was ordered to pay restitution jointly             Iowa Men Defraud Grain Elevator by Falsifying Grain Weight
and severally with her ex-husband.                                       Certificates

Wisconsin Dairy Farmer Guilty of Selling Mortgaged                       Our investigation into theft from an Iowa grain elevator
Property                                                                 determined that a local producer and an elevator employee
                                                                         created at least seven fictitious weight certificates between
In June 2013, a Wisconsin dairy farmer who pled guilty to                November 2008 and October 2009 and, in doing so, obtained
selling cattle that were pledged as security for FSA loans was           over $25,000 in fraudulent payments. The company
sentenced in U.S. District Court, Western District of                    victimized by this scheme is a federally licensed grain
Wisconsin, to 36 months’ probation and $197,156 restitution.             warehouse authorized by USDA under the U.S. Warehouse
The investigation determined that, between June 2006 and                 Act. The men were charged in U.S. District Court, Northern
September 2008, the producer sold approximately 170 head                 District of Iowa, with conspiracy and submitting false
of cattle and failed to provide sales proceeds to FSA as                 certificates. Additionally, the local producer was charged
required as a term of his loan agreements. The cattle were               with bankruptcy fraud and interfering with Internal Revenue
held as security for $290,000 in farm operating loans.                   Service laws. (The subject engaged in activities to conceal his
                                                                         income for tax purposes.) Both individuals pled guilty and, in
Iowa Producer Sentenced for Selling Loan Collateral                      July 2013, the producer was sentenced to 46 months’
                                                                         imprisonment, 36 months of supervised release, and
Several members of an Iowa family were charged in U.S.                   restitution totaling $26,267. The elevator employee was
District Court, Northern District of Iowa, for their respective          sentenced to 60 months of probation and ordered to pay
roles in selling livestock and equipment pledged as security             restitution of $26,267.
on FSA loans. Instead of providing sales proceeds to FSA, as
required by their loan agreement, the family members used                Producer Exaggerated Grain Storage Claims to Receive a
the funds for personal expenses. Our investigation                       Faulty Loan Guarantee
determined that the father conspired with his son, grandson,
and wife to apply for and receive FSA operating loans and                Our investigation determined that an Iowa producer
then sold livestock and equipment, in the name of another                intentionally altered a corn contract to reflect a significantly
family member, in an effort to conceal the nature of the                 greater amount of grain in storage than actually existed,
sales. In July 2013, the father was sentenced to 1 day in jail           which resulted in a local bank issuing a loan that was
and ordered to pay restitution of $263,015. His son and                  guaranteed by FSA. The producer eventually defaulted on
grandson each pled guilty to misprision of a felony in August            the loan, causing a significant loss to the financial institution
2013. They were sentenced to 18 months of probation and                  and USDA. In July 2013, the producer, who had previously
ordered to pay restitution of $10,610 and $24,483, jointly and           pled guilty to making a false statement for the purpose of
severally with the father. Charges were dismissed against the            influencing a financial institution, was sentenced to
wife and the relative whose name was used to sell the                    24 months’ incarceration and was ordered to pay $213,216 in
mortgaged collateral.                                                    restitution to FSA and $157,587 in restitution to the financial
                                                                         institution.
Arkansas Farmer Sentenced for Conversion of Mortgaged
Cattle                                                                   Livestock Dealer Pleads Guilty in State and Federal Courts

This investigation disclosed that an FSA borrower in Arkansas            A joint investigation with FBI and U.S. Postal Inspection
unlawfully sold cattle mortgaged to FSA. Between August                  Service disclosed that one of the largest livestock dealers in
2008 and January 2009, the farmer sold 127 head of FSA-                  the United States operated a multi-million-dollar check kiting
mortgaged cattle for $73,965 without FSA’s consent or                    scheme that resulted in financial losses for hundreds of
authorization. The man admitted to FSA employees that he                 businesses and individuals. Between August 2004 and
sold the cattle using his name. In December 2011, he was                 November 2010, the company engaged in check-writing and
indicted in U.S. District Court, Eastern District of Arkansas, for       deposit practices that grossly inflated its account balances in
unauthorized disposition of mortgaged property. He pled                  order to induce a bank to release funds from a line of credit
guilty to the charge in August 2012. In April 2013, the farmer           for purchasing livestock. The actual counts in the indictment
was sentenced to 5 months’ imprisonment, followed by                     were criminal syndication and complicity to theft by
36 months of supervised release, and was ordered to pay                  deception. In March 2012, four individuals pled guilty to
$73,955 in restitution and a $100 special assessment.                    State charges. Two of the individuals were sentenced to

                                                                     6
10 years of imprisonment, to run concurrently with any                  to equity skimming, had been sentenced to 6 months’ home
Federal sentence imposed. Two other individuals were                    confinement and 36 months’ probation, and was ordered to
sentenced to 12 months of imprisonment, probated for                    pay $25,000 in restitution and a $200 special assessment. In
2 years. A total of $890,000 in restitution was paid to                 April 2013, the president and company owner was sentenced
approximately 200 victims in the Commonwealth of                        to 6 months’ imprisonment, followed by 36 months’
Kentucky. The probated sentences were contingent upon                   supervised release, and was ordered to pay $384,000 in
payment of the ordered restitution. In December 2012, two               restitution and a $100 special assessment.
former company officials also pled guilty in U.S. District Court,
Western District of Kentucky, to one count of mail fraud upon           Maine Man and His Girlfriend Steal Identities of Their Minor
a financial institution. In May 2013, these two individuals             Children to Commit Benefits Fraud
were sentenced in Federal court to 57 and 70 months’
imprisonment with each receiving 2 years of supervised                  A Maine man and the mother of his child used their children’s
release and a $100 fine.                                                social security numbers to obtain employment and then
                                                                        failed to report their income to the various government
Georgia Businessman Sentenced to Prison for Illegally                   agencies from which they were receiving benefits. The man
Obtaining Government Contracts Reserved for Service-                    received rental assistance from RD as well as SNAP benefits
Disabled Military Veterans                                              from USDA and Temporary Assistance for Needy Families
                                                                        (TANF) administered by the Maine Department of Health and
A joint investigation determined that a business owner falsely          Human Services; his girlfriend likewise received SNAP and
represented his company as a Service-Disabled Veteran                   TANF benefits. The pair were charged during 2012 with
Owned Small Business and received over $1.7 million in                  Social Security fraud, theft of Federal funds, aggravated
government contracts, which were set aside specifically for             identity theft, and making false statements. The man pled
disabled veterans, from May 2008 to September 2008. The                 guilty in January 2013. In May 2013, he was sentenced to
business owner submitted bids for contracts, including a                48 months’ imprisonment to be followed by 36 months’
contract with the Agricultural Research Service (ARS),                  supervised release. He was also ordered to pay $21,382 in
knowing that he did not qualify as a Service-Disabled Veteran           restitution. His girlfriend pled guilty in June 2013 and awaits
Owned Small Business. In April 2013, the business owner                 sentencing.
pled guilty to making a materially false statement. In June
2013, he was sentenced to 24 months in prison, followed by              Wisconsin Businessman Convicted of Bank Fraud
24 months of supervised release. Prior to his sentencing
hearing, he paid $181,556 in restitution to USDA, the U.S.              A joint investigation with Internal Revenue Service-Criminal
Army, and the U.S. Coast Guard. This investigation was                  Investigation (IRS-CI) and FBI determined that a Wisconsin
conducted jointly with the Small Business Administration OIG,           man made false representations to RD during the process of
Department of Veterans Affairs OIG, Department of                       acquiring subsidized multi-family housing properties. After
Homeland Security OIG, and the Department of Defense–                   obtaining the properties, the individual embezzled reserve
Defense Criminal Investigative Service.                                 account monies and mismanaged loan funds, leading to a loss
                                                                        to USDA of approximately $840,000, and $2.5 million in losses
Second Maine Property Management Company Official                       to private lending institutions. In September 2012, the
Sentenced for Equity Skimming                                           individual pled guilty to two counts of bank fraud in U.S.
                                                                        District Court, Eastern District of Wisconsin. In May 2013, he
In the Semi-Annual Report, First Half of FY 2013, we reported           was sentenced to 45 months’ incarceration and ordered to
that a joint investigation with the U.S. Department of Housing          pay $2.5 million restitution. The defendant further agreed to
and Urban Development (HUD) OIG and FBI revealed that a                 a 5-year voluntary debarment from participation in USDA
residential property management company in Maine which                  programs.
managed housing projects funded through RD’s Section 515
program and HUD’s Section 236 program removed at least                  South Dakota Apartment Complex Manager Sentenced for
$987,268 in funds from project accounts and tenant security             Embezzlement of Funds
deposit accounts in violation of program regulations. The
company also charged ineligible expenses to the projects and            An investigation of a former Farmers Home Administration
committed other financial recordkeeping and reporting                   loan specialist uncovered an embezzlement scheme which
improprieties. We previously reported that the company’s                netted the individual approximately $40,000. An individual,
chief executive officer and part-owner, who also pled guilty            who worked for USDA from 1975 through 1986, left

                                                                    7
Government employment and assumed responsibility for                        Our investigation determined that, from January 2009
managing 10 low-income housing projects between 1988 and                    through February 2012, the manager of the store (who
2010. A review initiated by RD identified financial                         was also the husband of the store owner) purchased
discrepancies at these projects, and the subsequent criminal                SNAP benefits for 40 to 50 cents on the dollar.
investigation uncovered at least 21 inaccurate year-end
reports which enabled the apartment manager to cover up                 §   Three Residents of Lansing, Michigan, Sentenced for
her embezzlement scheme. In July 2013, in U.S. District                     Roles in SNAP Fraud Conspiracy. A Lansing, Michigan,
Court, District of South Dakota, the individual pled guilty to              trio devised a SNAP trafficking scheme which resulted in
filing false statements and was sentenced to 6 months’ home                 over $470,000 in illicit profits over a 3-year period.
confinement, 36 months’ probation, and restitution of                       During the course of our investigation, the small grocery
$38,814.                                                                    store averaged more than $54,000 a month in SNAP
                                                                            redemptions. The owner, his wife, and another store
Texas Mayor and Other City Employees Guilty of Fraud                        associate exchanged SNAP benefits for cash on multiple
                                                                            occasions from September 2010 through March 2012.
As a result of our investigation, the mayor of a small Texas                All three individuals ultimately pled guilty to felony
city and six other city employees were charged with various                 charges in U.S. District Court, Western District of
criminal offenses, including abuse of official capacity, misuse             Michigan. In June 2013, the leader of the conspiracy was
of official information, misapplication of fiduciary property,              sentenced to 54 months’ incarceration, 36 months’
securing and executing documents by deception, and theft by                 supervised release, and $472,485 in restitution payable
a public servant. The investigation revealed that city officials            to FNS. His spouse was sentenced to 36 months’
had obtained grant and loan funds from RD in March 2010 to                  probation and was ordered to pay $472,485 in restitution
purchase and equip police cars and then, in violation of RD                 jointly with her husband. In August 2013, the third
rules, used the police cars as collateral to obtain a loan from a           individual was sentenced to 12 months and 1 day of
local bank. There were also problems identified in use of the               incarceration and $306,897 in restitution payable jointly
loan funds and in use of official information. In May 2012,                 with his co-conspirators.
two police officers and a city clerk entered guilty pleas and
were sentenced to fines or probation. In April 2013, the                §   Chicago Retailer Sentenced for Role in SNAP Fraud.
mayor was found guilty by a jury and was immediately taken                  From June 2009 to June 2010, a previously disqualified
into custody. In May 2013, the mayor was sentenced to                       Chicago retailer continued to exchange SNAP benefits for
60 months of incarceration in the Texas Department of                       cash and ineligible items while reaping thousands of
Corrections. Charges were dismissed against three other                     dollars in profits. After being disqualified for SNAP
individuals. This case was worked jointly with the                          trafficking during 2006, the individual reestablished the
Montgomery County District Attorney’s Office-Public Integrity               store in a different name and reported that ownership
Division, FBI, the Texas Rangers, the Texas Department of                   had been transferred to his spouse. During the course of
Public Safety-Regulatory Crimes Bureau, and the Drug                        our investigation, the individual operated the store and
Enforcement Administration.                                                 continued to defraud SNAP while his wife had no real
                                                                            role in operating the store. The individual pled guilty in
SNAP Trafficking Cases                                                      U.S. District Court, Northern District of Illinois, and was
                                                                            sentenced, in May 2013, to 36 months’ probation and
A significant portion of OIG’s investigative resources are                  $159,000 in restitution.
dedicated to ensuring the integrity of SNAP by combating the
practice of exchanging benefits for cash. Working closely               §   Wisconsin Meat Delivery Route Vendor Convicted of
with FNS, OIG concluded the following SNAP-related                          SNAP Fraud. Our investigation, conducted jointly with
investigations and prosecutions in the second half of FY 2013:              the Milwaukee County Sheriff’s Department, determined
                                                                            that a meat delivery vendor defrauded SNAP by
§   Southeast Michigan Retailer Defrauds SNAP of                            purchasing benefits from individuals residing in area
    Approximately $1.4 Million. A long-term investigation                   homeless shelters. The subject of the investigation pled
    with Immigration and Customs Enforcement-Homeland                       guilty to felony charges. In May 2013, he was sentenced
    Security Investigations and the Michigan State Police                   in U.S. District Court, Eastern District of Wisconsin, to
    resulted in the manager of a Detroit area retail                        24 months’ incarceration, 36 months’ supervised release,
    establishment receiving a 24-month prison term and                      and $716,371 in restitution payable to FNS.
    being ordered to pay $1.4 million in restitution to FNS.

                                                                    8
§   A Store Owner in Eastern California Defrauds SNAP of                   Court, District of Oregon, to one felony count of
    More than $1 Million. In May 2013, a Stanislaus County,                conspiracy to commit wire fraud. In March 2013, the
    California, store owner was sentenced in U.S. District                 second accomplice pled guilty to a felony count of theft
    Court, Eastern District of California, to 37 months in                 of Government funds in U.S. District Court, District of
    Federal prison, followed by 36 months of supervised                    Oregon. As part of her plea, the accomplice agreed to
    release, and was ordered to pay more than $1 million in                permanent disqualification from SNAP.
    restitution and a $1,100 fine. He was also ordered to
    forfeit $235,161 seized after he was found to have                 Executive Director of Maine Non-Profit Organization Guilty
    trafficked in SNAP benefits. In December 2012, the store           of Embezzlement, Other Charges
    owner pled guilty to defrauding SNAP of more than
    $1 million between April 2009 and August 2011.                     An investigation conducted jointly with IRS-CI, the
                                                                       Department of Health and Human Services OIG, the
§   Couple Sentenced for Defrauding Multiple Federal Aid               Department of Housing and Urban Development (HUD) OIG,
    Programs While Residing in the Country Illegally.                  and the Department of Transportation OIG determined that
    Although they had been deported to Mexico in 2004, a               U.S. Government funds, including USDA funding to administer
    couple reentered the country and proceeded to apply for            WIC, were diverted to a consulting company, which then used
    several kinds of Federal benefits in Michigan. A joint             the money to pay personal living expenses and cash kickbacks
    investigation with the Social Security Administration OIG          to the executive director of a Maine non-profit organization.
    and Immigration and Customs Enforcement-Homeland                   The former executive director pled guilty in July 2012 to
    Security Investigations disclosed that the couple received         charges including conspiracy, embezzlement from a federally
    more than $85,000 from SNAP, the Special Supplemental              funded program, tax evasion, and signing false tax returns. In
    Nutrition Program for Women, Infants, and Children                 May 2013, he was sentenced to 30 months’ imprisonment to
    (WIC), Medicaid, and TANF. The couple pled guilty to               be followed by 36 months’ supervised release and was
    felony charges, including reentry of removed aliens and            ordered to pay $1.3 million in restitution.
    conspiracy in U.S. District Court, Western District of
    Michigan. In May 2013, the husband and wife were                   Georgia Store Owner Sentenced to Prison for WIC Fraud
    sentenced to 24 months’ and 12 months’ incarceration,
    respectively; they were also jointly and severally ordered         A joint investigation with the Immigration and Customs
    to pay $85,669 in restitution. Both will be deported               Enforcement-Homeland Security Investigations and the
    upon completion of their prison terms.                             Georgia Department of Public Health Office of Inspector
                                                                       General determined that the owner of a small store in
§   Oregon Department of Human Services Employee Steals                Georgia defrauded WIC of approximately $400,000 between
    Client Account Information in SNAP Scheme. In April                May 2009 and December 2010. During the investigation, the
    2013, in U.S. District Court, District of Oregon, a former         store owner and his employees purchased WIC vouchers for
    Oregon Department of Human Services (DHS) employee                 cash on 18 separate occasions. The store owner was charged
    was sentenced to 24 months’ imprisonment after she                 in U.S. District Court, Northern District of Georgia, with
    pled guilty to aggravated identity theft related to her            18 counts of WIC fraud and 83 counts of possession of forged
    theft and sale of SNAP benefits. In addition, she agreed           securities. In May 2013, he pled guilty to all charges. In
    to pay $3,430 in restitution and was instructed to pay a           September 2013, he was sentenced to 22 months in prison,
    $100 court assessment. The Portland woman initially                to be followed by 36 months of probation. He was ordered to
    started working for DHS as a volunteer under a State-              pay $14,000 in restitution and a special assessment of
    assisted work experience program. After briefly working            $10,100. This case also resulted in the administrative seizure
    as a paid employee, she used her account access                    of $82,000.
    privileges to access DHS client account information.
    Once she had the account information, she created
    fraudulent Oregon Trail electronic benefits transfer (EBT)
    cards from these accounts and then used or sold the
    clients’ benefits without their consent. In December
    2011, the woman and two other defendants were
    indicted in the U.S. District Court, District of Oregon, for
    aggravated identity theft and wire fraud. In November
    2012, one of the accomplices pled guilty in U.S. District

                                                                   9
RECOVERY ACT
FNS Did Not Ensure that States Properly Accounted for
Additional Recovery Act Funds for Administrative Costs               We did find that two States used funds from one fiscal year
                                                                     to pay for expenses incurred in a different fiscal year, and a
The Recovery Act provided additional funds for SNAP                  third State used funds after the obligation periods had
administrative costs, but OIG found that, while FNS made             expired. In addition, one county inappropriately used funds
Recovery Act administrative funds available timely for States        for payroll costs not associated with SNAP. As a result, we
to use, the agency did not provide adequate accounting               identified $470,272 in unallowable expenditures. We
guidance, coordination, and oversight to ensure States fully         recommended that FNS take steps to improve how the
complied with the transparency and accountability                    States account for funds, and the agency agreed. (Audit
requirements of the Act. Four of six reviewed States did not         Report 27703-0001-22, FNS Recovery Act Impacts on
separately account for Recovery Act funds for SNAP                   Supplemental Nutrition Assistance Program–Phase 2)
administrative expenditures. Although FNS did provide
instruction on how to report Recovery Act funds used, it did
not provide adequate guidance to assist States in separating
Recovery Act expenditures. Due to the lack of separate
accounting, we could not gather sufficient evidence to draw
any conclusions on the propriety of how States used
Recovery Act SNAP funds for administrative costs.




                                                                10
GOVERNMENTWIDE ACTIVITIES—GOAL 2                                        300 arrests. OIG combined forces with Federal, State, and
                                                                        local law enforcement agencies to arrest fugitives for such
Review of Legislation, Regulations, Directives, and                     offenses as arson, assault, blackmail, drug charges, offenses
Memoranda                                                               against family and children, robbery, sex offenses, and
                                                                        weapons violations.
§ Proposed Regulations—Suspension of SNAP Benefit
Payments to Retailers. OIG reviewed and provided comments               § Ohio Organized Crime Investigations Commission Task
on the proposed rule regarding the suspension of SNAP                   Force. An OIG investigator is participating on the Ohio
benefit payments to retailers (78 Fed. Reg. 12245 (February             Organized Crime Investigations Commission Task Force in
22, 2013)). The proposed rule would implement 7 U.S.C. §                Dayton. The task force provides assistance to local law
2021(h), which authorizes the Department to suspend the                 enforcement agencies in the investigation of organized
payment of redeemed SNAP benefits to certain retail food                criminal activity. OIG investigators have participated on the
stores or wholesale food concerns pending administrative                task force since 1996 and have conducted investigations
action to disqualify the firms for fraudulent activity. OIG’s           involving welfare recipients, food stamp trafficking,
concerns related to the preamble’s statement regarding the              mortgaged farm equipment stolen from farmers, stolen
total number of firms subject to concluded judicial action for          property trafficking, illegal drugs, and dog fighting.
SNAP fraud; the definition and application of the payment
suspension remedy; and the disposition of the suspended                 § Bridge Card Enforcement Team. OIG investigators work
payments. OIG suggested that FNS include factors in the                 with this team to investigate criminal SNAP and WIC
regulation to inform what constitutes a “flagrant violation”            violations. Team members include the Michigan State Police
warranting a payment suspension. In addition, we suggested              and IRS investigators. During this reporting period, we have
that FNS consider amending the proposed regulation so that              also worked with the Lansing Police Department’s Special
it conforms to the statute and allows suspensions to be                 Operations Division and the Holland Police Department in
imposed with respect to any “flagrant violations.” We also              Michigan. FBI and U.S. Immigration and Customs
questioned FNS’ preamble statement regarding how many                   Enforcement personnel also helped during search warrant
firms were subject to civil or criminal action for SNAP fraud,          operations. Since 2007, our teamwork has resulted in
and we committed to working with FNS to ensure accurate                 139 arrests and 235 search warrants served. The U.S.
information regarding such firms. Finally, we suggested that            Attorney’s Offices for the Eastern and Western Districts of
FNS clarify the proposed rule’s preamble and provisions                 Michigan and the Michigan Attorney General’s Office are
regarding the disposition of any suspended payments where               pursuing multiple criminal prosecutions, with cases so far
a sanctioned firm was also subject to related criminal or civil         resulting in 137 guilty pleas. Sentences have included lengthy
judicial proceedings.                                                   incarceration periods and $26 million in court-ordered fines
                                                                        and restitution. The U.S. Attorney’s Offices have initiated
Participation on Committees, Working Groups and Task                    forfeitures totaling over $4.4 million.
Forces
                                                                        § Suspicious Activity Reports Review Teams. OIG agents in a
                                                                        number of States participate on suspicious activity review
§ Interagency Fraud and Risk Data Mining Group. The OIG
                                                                        teams, which are coordinated by the U.S. Department of
Data Analysis and Special Projects Division participates in this
                                                                        Justice through the U.S. Attorney’s Offices. These review
working group to learn from experts in the fields of data
                                                                        teams systematically review all reports of suspicious activity
mining and risk analysis. The group brings together
                                                                        that affect a specific geographic jurisdiction, identify
investigators and auditors within the Federal community to
share fraud detection and prevention best practices,                    individuals who may be engaged in criminal activities, and
modeling tools and techniques, and emerging issues that can             coordinate and disseminate leads to appropriate agencies for
be integrated with existing data mining practices, tools, and           followup. These teams generally include representatives
techniques.                                                             from law enforcement and various regulatory agencies, with
                                                                        the U.S. Attorney’s Office and IRS-CI typically in lead roles.
                                                                        OIG focuses specifically on reports of suspected criminal
§ Operation Talon. OIG began Operation Talon in 1997 to
                                                                        activities by business entities and individuals involved in
catch fugitives, many of them violent offenders, who are
                                                                        USDA programs, including SNAP and WIC violations, stolen
current or former SNAP recipients. Since its inception,
                                                                        infant formula, and farm-related cases. Coordination among
Operation Talon has led to the arrests of thousands of
                                                                        the respective agencies results in improved communication
fugitive felons. During the second half of FY 2013, Talon
operations were conducted in 7 States, resulting in more than           and more efficient resource allocation.

                                                                   11
                                                                       Region OIG investigators organize and participate in meetings
§ Mortgage Fraud Task Forces. OIG investigators participate            to enhance coordination among Federal, State, and local law
in mortgage fraud task forces in California, Minnesota, and            enforcement agencies in the Pacific Northwest. Inspector
North Carolina, in addition to a national mortgage fraud               General (IG) councils meeting in other regions of the country
working group that meets monthly in Washington, D.C.                   also include USDA-OIG representatives.
These task forces identify trends, share information, and
coordinate investigations related to mortgage fraud. They              § Small Business Innovative Research Working Group. OIG
are working to improve efforts across the Federal executive            investigators and auditors participate in a working group
branch, and with State and local partners, investigate and             hosted by the National Science Foundation OIG. The working
prosecute significant mortgage crimes, combat discrimination           group is focused on addressing Congress’ concerns about the
in the lending and financial markets, and recover proceeds             persistence of fraud in this research program, as well as the
for victims of financial crimes. The task forces are headed by         IGs’ annual reporting requirements on their work in this
representatives from U.S. Attorney’s Offices and FBI. They             program area.
are strategically placed in locations identified as high-threat
areas for mortgage fraud. They include participants from               § Environmental Crimes Working Groups. OIG agents
Federal program agencies and regulatory agencies including             continue to participate in working groups convened by U.S.
HUD, IRS, the Social Security Administration, local district           Attorney’s Offices in the District of New Hampshire, the
attorney’s offices, and police departments.                            Eastern District of North Carolina, and the Western District of
                                                                       Washington State, to improve cooperation and coordination
§ Organized Retail Theft Task Forces. As a member of the               among Federal, State, and local law enforcement agencies
Retail Merchants Association of North Carolina Retail Theft            enforcing environmental laws, as well as to exchange
Initiative, OIG agents coordinate, plan, and meet regularly            information and provide prosecutorial support and training
with various retail merchants in North Carolina to discuss a           opportunities.
proactive investigative strategy to develop cases involving
retail theft. This working group coordinates investigations of         § Minnesota Pest Risk Committee. OIG participates in this
convenience stores and retail outlets that may be involved in          committee, which is composed of Federal, State, and local
the theft and resale of infant formula, electronics, and other         representatives who focus on efforts used in Minnesota to
retail items. As members of the Bay Area Organized Retail              intercept and control invasive plants, insects, and animals
Crime Association in California, OIG agents work with other            that are detrimental to the State.
area law enforcement agencies and organized retail crime
investigators from major retailers to identify and coordinate          § OIG agents participated in other task forces and working
action against organized retail theft rings, as well as to             groups related to benefits fraud, including the Northern
identify retail items susceptible to theft by such organized           California Financial Fraud Investigators Association; a
groups.                                                                bankruptcy fraud working group and white-collar crime
                                                                       working group in Kansas and Missouri; the Identity Theft
§ The Guardians. USDA OIG is a member of this task force in            Working Group in New Hampshire; social services/welfare
Montana consisting of other OIGs and FBI. The task force was           fraud working groups in Oregon and Washington State; and
convened by the U.S. Attorney’s Office to coordinate and               SNAP fraud joint investigative groups in Arizona, California,
synchronize law enforcement efforts among various                      and Mississippi, including a Secret Service High Tech Crimes
Departments that have a significant financial commitment in            Task Force.
Native American communities in Montana. The participating
agencies join forces; share assets and responsibilities;
promote citizen disclosure of public corruption, fraud, and
embezzlement in Federal programs, contracts, and grants;
and investigate and prosecute crimes against Montana’s
Native American communities.

§ Western Regional Inspectors General Councils and
Intelligence Working Groups. OIG investigators work with
various councils and groups to share information, discuss
ongoing and potential work of mutual interest, and
strengthen working relationships. In addition, Western

                                                                  12
ONGOING REVIEWS FOR GOAL 2


§   Environmental Quality Incentives Program (NRCS),
§   duplication in Rural Business-Cooperative Service
    Grant Programs (RD),
§   Single Family Housing direct servicing and payment
    assistance recapture (RD),
§   National School Lunch/Breakfast Programs (FNS),
§   SNAP error rate (FNS),
§   review of procurement controls (RD),
§   economic adjustment assistance to users of upland
    cotton (FSA),
§   compliance activities (FSA),
§   Noninsured Crop Disaster Assistance Program (FSA),
§   States’ food costs for WIC (FNS),
§   review of a Rural Utilities Service (RUS) Water and
    Waste Program hotline complaint (RD),
§   eligibility and compliance consideration for Section
    2501 grants, which fund outreach assistance for
    socially disadvantaged farmers and ranchers
    (Departmental Management), and
§   trade adjustment assistance for farmers program,
    phase 2 (Foreign Agricultural Service (FAS), FSA,
    National Institute of Food and Agriculture (NIFA)).




                                                           13
Management Improvement Initiatives
OIG Strategic Goal 3:
Support USDA in implementing its management improvement initiatives                       Management Challenges Addressed
                                                                                          Under Goal 3
OIG conducts audits and investigations that focus on such areas as improved
                                                                                          §    USDA Needs to Create Strong,
financial management and accountability, information technology (IT) security and
                                                                                               Integrated Internal Control
management, research, real property management, employee integrity, and the                    Systems Across Programs (also
                                                                                               under Goals 1 and 2)
Government Performance and Results Act. The effectiveness and efficiency with
                                                                                          §    FNS Needs to Strengthen SNAP
which USDA manages its assets are critical. USDA depends on IT to efficiently and              Management Controls (also
                                                                                               under Goal 2)
effectively deliver its programs and provide meaningful and reliable financial
                                                                                          §    Identifying, Reporting, and
reporting. One of the more significant dangers USDA faces is a cyber-attack on its             Reducing Improper Payments
                                                                                               Can Strengthen USDA Programs
IT infrastructure, whether by terrorists seeking to destroy unique databases or
                                                                                          §    USDA Needs to Increase Efforts
criminals seeking economic gain.                                                               for Appropriately Training and
                                                                                               Preparing Human Resources
In the second half of FY 2013, we devoted 38.8 percent of our total direct
resources to Goal 3, with 98.9 percent of these resources assigned to critical/high-impact work. A total of 88.5 percent of our
audit recommendations under Goal 3 resulted in management decision within 1 year, and 74 percent of our investigative
cases resulted in criminal, civil, or administrative action. OIG issued 10 audit reports under Goal 3 during this reporting
period. OIG’s investigations under Goal 3 yielded 10 indictments, 4 convictions, and about $4.2 million in monetary results
during this reporting period.

.
EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                              with OIG’s findings and has taken corrective action to address
FOR GOAL 3                                                            10 of the 12 recommendations in this report. (Audit Report
                                                                      92501-0001-12, Review of Procurement Operations)
The Office of Procurement and Property Management
(OPPM) Needs to Better Oversee Procurements for                       USDA Needs to Improve its System for Reviewing the
Departmental Management                                               Classification of Documents

OPPM’s Procurement Operations Division (POD) is                       As required by the Reducing Over-Classification Act, OIG
responsible for processing procurements for Departmental              reviewed USDA’s compliance with Federal regulations
Management (DM) and Staff Offices. OIG reviewed POD’s                 designed to prevent information from being over-classified
controls over the procurement process and found several               and to promote information sharing. While the Personnel
issues POD needed to address. We reported POD was not                 and Document Security Division (PDSD) focuses on
keeping sufficient documentation for DM and Staff Office IT           safeguarding national security information within USDA, our
procurements. We also found that DM and Staff Office                  review found that PDSD lacks proper guidance for eight key
personnel had not defined user roles and allowed users to             areas relating to classification management and does not
have excessive access abilities within the procurement                have a records management system that would identify
system. This report also included an issue previously                 documents that need to be declassified or reviewed for
disclosed to DM regarding a contracting officer who signed            continued national security. We also found that USDA’s
three contract actions that exceeded the contracting officer’s        classification guide was missing required elements needed for
warrant authority. POD did not detect these problems                  proper derivative classification decisions. PDSD also needs to
because it did not have formal policies and procedures to             improve its reviews of classified markings on documents.
monitor contracting officers’ actions. OPPM generally agreed
                                                                 14
Further, PDSD does not always obtain and maintain adequate             chief financial officers certified that information was accurate
statistics related to the security classification program, and         and met applicable criteria, component agencies’ submissions
USDA does not ensure that its subordinate agencies are                 required substantive review by OCFO to ensure USDA
conducting self-inspections in accordance with regulations             followed the high-dollar reporting guidance appropriately and
and procedures. Finally, PDSD’s classification management              that only payments that were supposed to be reported were
training content and documentation need to be improved,                included. We recommended that OCFO provide additional
particularly in providing required information to individuals          oversight over component agencies’ processes to ensure that
with security clearances. As a result, there is a greater              component agencies’ high-dollar overpayment reports
potential for over-classifying or improperly releasing national        comply with Departmental high-dollar reporting guidance.
security information. PDSD accepted several of our                     OCFO agreed with our recommendation, and we have
recommendations, but additional action from the agency is              accepted management decision on the recommendation.
needed to address the other recommendations. (Audit                    (Audit Report 50024-0003-11, Executive Order 13520,
Report 61701-0001-32, U.S. Department of Agriculture’s                 Reducing Improper Payments—Fiscal Year 2012 High-Dollar
Office of Homeland Security and Emergency Coordination—                Report Review)
Classification Management)
                                                                       OCFO and FS Need to Ensure that Employees Are Not
OCFO/National Finance Center (NFC) Controls Were Suitably              Misusing Their Travel Cards
Designed and Operating Effectively
                                                                       In our review of USDA’s travel card data, OIG identified a low
Based on the criteria described in OCFO/NFC assertions                 incidence of cardholder misuse, and determined that OCFO
related to payroll personnel and application of hosting                and five of six agencies reviewed were generally following
systems, we found the agency’s descriptions of controls fairly         guidelines. Of 80 statistically sampled FY 2011 travel card
present the systems that OCFO/NFC implemented. Also, the               charges, we did determine that 14 were inappropriate
controls related to the control objectives stated in the               because employees used the cards when they were not
descriptions were suitably designed and operating effectively          authorized for official travel. Although other USDA agencies
to provide reasonable assurance that the control objectives            identified such transactions and followed up appropriately, FS
would be achieved. (Audit Report 11401-0005-11, Statement              did not identify nine of the inappropriate charges because FS
on Standard for Attestation Engagements No. 16, Report on              was not performing adequate reviews of employee
Controls at the National Finance Center for October 1, 2012            transactions. An additional statistical sample of FS
to July 31, 2013)                                                      transactions revealed that 4.1 percent of the sampled FS
                                                                       transactions (all attributable to four employees) occurred
USDA Needs to Improve How It Reports High-Dollar                       during a time when the employees were not authorized for
Overpayments                                                           travel. These four employees’ travel card accounts disclosed
                                                                       that they had used their travel cards approximately 500 times
To intensify efforts to eliminate payment error, waste, fraud,         without a travel authorization and misused their travel cards
and abuse in Federal programs, the President issued                    to make personal charges totaling approximately $13,700.
Executive Order 13520, “Reducing Improper Payments.” The               We recommended that FS take steps to discipline these
Executive Order requires OIG to review USDA’s quarterly                employees and prevent such problems from recurring. OCFO
high-dollar overpayment reports and make                               and FS agreed with our recommendations. (Audit Report
recommendations, as necessary, to help agencies improve                50024-0003-13, Review of the Department’s Travel Card
their plans to recover and prevent high-dollar overpayments.           Data)


We found that in the third year of reporting, USDA reported            FSA Needs to Prevent Calculation Errors in its Program
more comprehensive information about high-dollar                       Payments
overpayments than it did in previous years. Specifically, due
to improved reporting oversight and processes, USDA                    FSA did not properly record and adequately support all
reported 239 overpayments, totaling approximately                      FY 2012 program payments. After reviewing 80 statistically
$20.3 million, in FY 2012. This represents an increase of              selected FSA program payments, we identified errors in 12.
67 percent over the number of overpayments reported the                These errors occurred primarily because FSA’s internal
previous year. However, we determined that the quarterly               controls over the Supplemental Revenue Assistance
reports included errors and were published up to 102 days              Payments program’s manual payment calculation process did
after the due date. This occurred because, although agency             not prevent data errors. Personnel at county offices made
                                                                  15
errors when inputting the data into the manual workbook                Overlap and Duplication in Food and Nutrition Service’s
used to calculate the payments, and second-party reviewers             Nutrition Programs)
did not identify these errors. Based on the results of our
sample, we estimated that a total of about $17 million of              NFC Generally Reported Employee Benefits, Withholdings,
FSA’s program payments were improper. FSA’s rate of                    and Contributions Correctly to the Office of Personnel
improper payments was 2.3 percent, an increase from the                Management (OPM)
1.4 percent rate we identified in an audit of payments FSA
made in FY 2011. FSA agreed that these 12 errors resulted in           As required annually by OMB, we assisted OPM in assessing
improper payments of $80,480, and initiated or completed               the reasonableness of retirement, health, and life insurance
appropriate corrective actions for all errors. We have                 withholdings and employee data submitted by OCFO and
accepted management decision on the one recommendation.                NFC. We found instances of differences that exceeded the
(Audit Report 03401-0002-11, Fiscal Year 2012 Farm Service             allowable OPM thresholds. In addition, when verifying
Agency Farm Assistance Program Payments)                               Combined Federal Campaign deductions made by the payroll
                                                                       providers, we identified situations where the deductions
FNS Needs to Assess its Food Assistance Programs and                   were sent to different campaign areas than those designated
Reduce any Potential Duplication                                       by OPM. OCFO/NFC noted the low error rate overall when
                                                                       considered on a percentage basis and attributed most of the
Over many years, Congress has directed FNS to establish a              differences to human error by personnel at various agencies.
variety of separate nutrition assistance programs, with a              (Audit Report 11401-0006-11, Agreed-Upon Procedures:
variety of purposes, objectives, and client bases. With the            Retirement, Health Benefits, and Life Insurance
growing rate of food insecurity among U.S. households and              Withholdings/Contributions and Supplemental Semiannual
significant pressures on the Federal budget, it is important to        Headcount Report Submitted to OPM)
understand how food assistance programs complement one
another as a safety net and how services from these                    Former RD Employee Ordered to Pay $3.9 Million in
15 individual programs may be inefficient due to potential             Restitution
overlap and duplication. While FNS has attempted to be
more efficient, the agency has not performed overarching               In the Semi-Annual Report, First Half of FY 2013, we reported
assessments to evaluate how the programs operate together              that a former RD area director in Alabama was sentenced to
as the Nation’s nutritional safety net. OIG concluded that             60 months in prison and 36 months of probation for wire
FNS could potentially achieve cost savings by taking actions to        fraud, with restitution to be determined. This individual pled
eliminate duplication and overlap in its nutrition assistance          guilty in November 2012 to committing wire fraud by
programs. FNS, however, contends that such an assessment               depositing $6.2 million in checks issued by 10 water
would be costly. Since FNS could not quantify the cost, the            authorities and 1 electric authority into a bank account for
agency should determine the resources that would be                    which he had the sole signatory authority. A joint
required to conduct such a study. Then FNS should                      investigation with FBI disclosed that the employee then
determine whether it has the resources to conduct the study            transferred those funds to his personal accounts. In June
or whether additional appropriated funding will be required.           2013, the man was ordered to pay $3.9 million in restitution
Although FNS believes that the network of nutrition                    to seven water authorities and one electric authority. He had
assistance programs that make up the national nutritional              previously repaid some of the funds he had diverted. The
safety net reflects Congress’ recognition of a diversity of            employee was separated from Federal employment in
needs, the agency generally acknowledged the need to                   January 2013.
conduct such an assessment. (Audit Report 27001-0001-10,




                                                                  16
Recovery Act

The Rural Utilities Service (RUS) Needs to Strengthen Future         performance and sharing information with the Federal
Broadband Programs by Establishing Additional Written                acquisition workforce. Also, it did not ensure it achieved
Guidance                                                             desired outcomes, such as the completion of contract
                                                                     closeout, within a 6-month period. This occurred because
With the passage of the Recovery Act, Congress authorized            ARS lacked adequate management oversight over the
RUS’ Broadband Initiatives Program (BIP) to help bring               contract closeout process to ensure that related contracting
broadband to rural areas of the United States where                  activities met intended goals. We recommended that ARS
residents might otherwise not have access to this important          take action related to its internal reviews of the
technology. OIG reviewed 247 advances, totaling                      procurement process and develop its guidance for
$146.4 million, for 86 sampled awards and concluded that             documenting that contracts are consistently and timely
RUS’ advances of BIP funds were generally supported.                 closed out. ARS also needs to complete its implementation
However, we did find that, while BIP primarily financed last         of a contractor evaluation database and strengthen its
mile projects that provide service to end-users such as              oversight of the contract closeout process. ARS generally
households and businesses, RUS does not have adequate                agreed with our recommendations, and we have accepted
controls to measure and transparently report how effectively         management decision on all recommendations. (Audit
BIP is meeting its subscribership goals. Additionally, RUS           Report 02703-0001-12, Agricultural Research Service
administered the program differently than as outlined in the         Contract Closeout Process—Recovery Act)
Notice of Funds Availability, including allowing awards
composed of greater than 75-percent grant components
without required waivers, or substituting equity for the loan
portion, without adequately informing all prospective
applicants. These issues generally occurred because RUS did
not develop procedures and guidance outlining how various
processes were to be carried out. RUS agreed to strengthen
BIP by establishing additional written guidance to address
specific processes. (Audit Report 09703-0002-32, American
Recovery and Reinvestment Act of 2009—Broadband
Initiatives Program—Post-Award Controls)

ARS Needs To Strengthen How It Closes Out Contracts

OIG assessed ARS procedures for closing out Recovery Act
contracts which the agency used for repairs to critical
systems at its research facilities. OIG found that ARS timely
identified funds on physically completed contracts that could
be put to better use. ARS did not allow any funds to expire
and obtained the proper releases from the contractors.
Further, ARS took additional measures to ensure that
Recovery Act goals related to transparency and
accountability were met. However, we determined that ARS
should strengthen the effectiveness and efficiency of its
controls for closing out contracts. For example, ARS’
acquisition oversight did not ensure that it properly and
timely implemented processes for evaluating contractor




                                                                17
GOVERNMENTWIDE ACTIVITIES—GOAL 3                                         Administration’s Inspector General.” Deleting this provision
                                                                         would protect the independence of Inspectors General and
Review of Legislation, Regulations, Directives, and                      align OMB’s memorandum with the language of the Improper
Memoranda                                                                Payments Elimination and Recovery Improvement Act of
                                                                         2012 and the Inspector General Act of 1978. In addition, OIG
§ Review of the Office of Management and Budget (OMB)                    recommended that OMB include the timeframe during which
Draft Guidance on Governmentwide Financial Reporting and                 agencies must report to OMB the specific number of days
Audits. On July 3, 2013, OMB solicited comments on its                   that it takes agencies’ Data Integrity Boards to approve or
proposed FY 2013 updates to OMB Circular A-136, Financial                disapprove each proposed “Do Not Pay” matching program.
Reporting Requirements, and OMB Bulletin No. 07-04, Audit                Including this information in the guidance would clarify
Requirements for Federal Financial Statements. OIG                       agencies’ responsibilities. Finally, OIG recommended
reviewed the draft and provided comments. Specifically, OIG              including the signed Authority to Operate document in the
suggested OMB Circular A-136 include language related to                 list of items that Treasury must post on the central “Do Not
recovery targets that aligns with OMB Circular A-123,                    Pay” website, in order to demonstrate compliance with
Appendix C, Requirements for Effective Measurement and                   information technology security regulations.
Remediation of Improper Payments.
                                                                         § Digital Accountability and Transparency Act (DATA) of 2013.
§ OMB Guidance Frequently Asked Questions (FAQ)—                         OIG reviewed and provided comments primarily on Section
Applying the Open Data Policy to Federal Awards. OIG                     3(g) (“Accountability for Federal Funding”) of this bill, which
reviewed a draft FAQ guidance document on applying OMB’s                 concerns OIG data quality reviews. Under the draft bill, IGs
Open Data Policy to Federal acquisition and grant-making                 would be required to review a sampling of data submitted by
processes and had one comment. OMB’s Open Data Policy                    their agencies under the DATA Act and to submit data to
requires government information to be structured in a way                Congress on the completeness, timeliness, quality, and
that enables it to be fully discoverable and usable by end               accuracy of the data samples and the implementation and
users (machine readable/platform independent, i.e., no need              use of consistent data standards by the agencies. In a prior
for specific software to open the data). The draft FAQ                   version, the DATA Act would require OIGs to submit reports
included a reference to “Councils” that will be a resource for           to Congress on their reviews. Under the proposed change,
better understanding overall implementation of the Open                  OIGs would only be required to submit data to Congress on
Data Policy and for developing tools and information that can            their reviews. OIG noted the change from the word “report”
provide some consistency in implementation. OIG                          to “data” provided OIGs with more flexibility in conducting
recommended that OMB consider specifying the “Councils”                  reviews and in determining how that information needs to be
(Chief Acquisition Officers Council, the Chief Financial Officers        communicated to Congress.
Council, the Chief Information Officers Council, and/or the
Federal Records Council) referred to in the document for a               § Secure Domain Name System (DNS) Policy. In June 2013,
better understanding of which Councils will be involved in               USDA circulated a draft Departmental regulation entitled the
this effort.                                                             “Secure Domain Name System (DNS) Policy.” The draft policy
                                                                         proposed to establish the minimum requirements for
§ OMB Draft Memorandum on Protecting Privacy While                       implementing DNS and Domain Name System Security
Reducing Improper Payments with the Do Not Pay Initiative.               Extensions services across all USDA networks. OIG submitted
OIG provided comments on a draft OMB memorandum                          several substantive and technical comments on the item.
entitled “Protecting Privacy While Reducing Improper                     First, OIG noted that the policy did not include all server
Payments with the Do Not Pay Initiative.” OMB’s                          checklist items that are required by National Institute of
memorandum would help agencies reduce improper                           Standards and Technology (NIST) Special Publication 800-81
payments in compliance with the Privacy Act of 1974 and                  Revision 1, and suggested that the policy state that USDA
other laws and policies. OIG recommended deleting a                      servers must meet these guidelines. OIG also noted that the
statement in OMB’s memorandum relating to computer                       policy contained a DNS Policy Waiver Process, which arguably
matching by Inspectors General, that would provide that                  applied to OIG. Pursuant to Section 3 of the Inspector
“[a]lthough Inspectors General may take the initiative in                General Act of 1978, 5 U.S.C. app. 3, §§ 1-13, the Inspector
proposing a matching program, all [Computer Matching                     General can only report to and be under the general
Agreements (CMAs)] shall be written at the departmental or               supervision of the Deputy Secretary or Secretary, not the
agency level. For example, the Social Security Administration            Chief Information Officer. The draft policy also contained a
would enter into a CMA on behalf of the Social Security                  process for the registration of the DNS public-facing server,

                                                                    18
which appeared to be a one-time event. OIG suggested that              of the Consolidated and Further Continuing Appropriations
the process should be done on a periodic basis to ensure               Act of 2013. We also communicated with OMB and CIGIE’s
servers stay in compliance with current security                       Legislation Committee about the expectations of the IG
requirements. OIG also included a general comment                      community in implementing the requirement.
regarding the draft policy noting that, although public-facing
DNS are more at risk than non-public-facing, NIST does not             § Hurricane Sandy Disaster Rebuilding Task Force. OIG
make a distinction. OIG recommended that the regulation                participated in and monitored USDA’s efforts related to
should be clearer that all DNS, and not just public-facing DNS,        Hurricane Sandy recovery efforts.
must follow NIST Special Publication 800-81 guidance.
Finally, we made a number of technical comments that were              § Special Inspector General for Afghanistan Reconstruction
intended to clarify various provisions of the draft policy.            Coordination Efforts. The Special Inspector General for
                                                                       Afghanistan Reconstruction (SIGAR) initiated a financial audit
Participation on Committees, Working Groups and Task                   of a non-governmental organization (NGO) that received
Forces                                                                 USDA funds for reconstruction activities in Afghanistan. To
                                                                       avoid potential duplication of efforts, OIG auditors initially
§ USDA Credit Reform Workgroup. The Financial Audit                    coordinated with SIGAR to discuss OIG’s current work with
Operations Division of OIG participates on this workgroup,             the same NGO. Throughout the course of the audit, OIG
which is composed of representatives from all USDA credit              auditors continued to coordinate with SIGAR.
agencies. The purpose of this workgroup is to address
accounting, auditing, budgeting and reporting issues                   § RESTORE Act. OIG attended the initial planning meeting for
encountered by agencies subject to the Federal Credit                  a Governmentwide oversight activity of the Gulf Coast
Reform Act of 1990.                                                    Restoration Trust that was established by the Resources and
                                                                       Ecosystems Sustainability, Tourist Opportunities, and Revived
§ Financial Statement Audit Network (FSAN) Workgroup. OIG              Economies of the Gulf Coast States Act of 2012. The OIG of
auditors are members of the FSAN workgroup, whose main                 the Department of the Treasury is leading and coordinating
purpose is to share ideas, knowledge, and experience                   this effort.
concerning Federal financial statement audits. Through
coordination with FSAN, annually OIG hosts the Council of the          § Whistleblower Ombudsman Working Group. An OIG
Inspectors General on Integrity and Efficiency                         employee serves as USDA’s Whistleblower Protection
(CIGIE)/Government Accountability Office (GAO) Financial               Ombudsman and continues to participate in the OIG
Statement Audit Conference in the Department’s Jefferson               Whistleblower Ombudsman Working Group. This group was
Auditorium.                                                            established following the enactment of the Whistleblower
                                                                       Protection Enhancement Act of 2012 to assist newly
§ Federal Audit Executive Council. OIG participates in the             designated ombudsmen with implementing the Act’s
Federal Audit Executive Council (FAEC), whose main purpose             requirements concerning the education of Federal employees
is to discuss and coordinate issues affecting the Federal audit        about prohibitions against retaliation for protected
community with special emphasis on audit policy and                    disclosures of fraud, waste, and abuse, and their rights and
operations of common interest to members. The council has              remedies if retaliation does occur.
six standing committees: Audit, Financial Statements,
Information Technology, Professional Development,                      § Financial Fraud Enforcement Task Force (formerly the
Contracting, and the Annual Conference. OIG’s Assistant                National Procurement Fraud Task Force). OIG is a member of
Inspector General for Audit serves as the Co-Chair of the              this task force, formed by the Department of Justice in
Audit Committee. The Audit Committee recently identified               October 2006 as a partnership among Federal agencies
and compiled internal and external metrics and performance             charged with investigating and prosecuting Government
measures used in the Federal audit community for evaluating            contracting and grant illegalities. The purpose of the task
audit quality and timeliness. It also compiled factors and best        force has been expanded to include a wider variety of
practices used in annual audit planning, and presented the             financial crimes, from securities fraud to identity theft. The
results at the September 2013 FAEC conference.                         task force is working to better allocate resources, improve
                                                                       coordination in financial fraud cases, and accelerate their
§ Conference Spending Reporting Requirements. OIG                      investigation and prosecution. OIG investigation field offices
surveyed FAEC to assess the IGs’ implementation of the                 in all OIG regions participate in procurement fraud task
conference reporting requirements outlined in Section 3003             forces.

                                                                  19
§ FBI’s Public Corruption Working Group/Task Force. OIG
agents are members of these groups in Mississippi and Utah,
which are focused on combating corruption involving
Government officials and employees.



 ONGOING REVIEWS FOR GOAL 3


 §   Livestock Forage Program (FSA),
 §   review of USDA contractor payments (OCFO),
 §   USDA and its agencies’ financial statements for FY
     2013 (OCFO),
 §   In re Black Farmers Discrimination Litigation (USDA),
 §   USDA’s controls over Economy Act transfers and
     Greenbook program charges (OCFO),
 §   controls over land valuations for conservation
     easements (NRCS),
 §   effectiveness of the export credit guarantee program
     (FAS),
 §   Noninsured Crop Disaster Assistance Program (FSA),
 §   FY 2013 Federal Information Security Management Act
     review (OCIO),
 §   management security over USDA’s telecommunication
     network (OCIO),
 §   Hispanic and women farmers and ranchers claim
     resolution process (USDA),
 §   national program operations reviews (RMA),
 §   security review of National Agricultural Statistics
     Service lockup procedures (NASS),
 §   Section 632(A) transfer of funds from U.S. Agency for
     International Development to USDA (FAS),
 §   Strikeforce Initiative, a Departmental outreach effort
     to provide information and assistance to minority and
     women farmers (Departmental Management),
 §   conservation easement compliance (NRCS),
 §   firefighting cost share agreements with non-Federal
     entities (FS),
 §   review of USDA’s bank purchase card data (OPPM),
 §   review of USDA contractor databases (OPPM),
 §   data quality review of beef research and promotion
     board (AMS),
 §   USDA research initiatives (ARS, NIFA, FS), and
 §   private voluntary organization grant fund
     accountability (FAS).




                                                              20
Stewardship of Natural Resources
OIG Strategic Goal 4:
Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources

OIG’s 5-Year Strategic Plan (FY 2013-2018) no longer identifies oversight of the stewardship of natural resources as a separate
and distinct goal. While audits and investigations of FS and NRCS programs continue, and these reviews involve oversight of
the stewardship of natural resources, we have determined that the results of these reviews could be reported equally well
under Goals 1, 2, and 3. Accordingly, we have no audits or investigations to report for this goal in this SARC reporting period.



In addition to the direct time OIG spent on Goals 1, 2, and 3, 1.5 percent of the agency’s direct time was spent on Goal 4 and
an investigative administrative action.




                                                               21
Appendix—Gauging the Impact of OIG 
Measuring Progress Against the OIG Strategic Plan
                                                                    For audits we show:
The first way we gauged our impact was by measuring the
extent to which our work focused on the key issues under our            §   reports issued,
strategic goals. These are:                                             §   management decisions made (number of reports
                                                                            and recommendations),
    1.   Strengthen USDA’s ability to implement safety and
                                                                        §   total dollar impact of management-decision reports
         security measures to protect the public health as
                                                                            (questioned costs and funds to be put to better use),
         well as agricultural and Departmental resources.
                                                                        §   program improvement recommendations; and
    2.   Reduce program vulnerabilities and strengthen
                                                                        §   audits without management decision.
         program integrity in the delivery of benefits to
         individuals.
                                                                    For investigations we show:
    3.   Support USDA in implementing its management
         improvement initiatives.
                                                                        §   indictments,
                                                                        §   convictions,
Impact of OIG Audit and Investigative Work on Department
                                                                        §   arrests,
Programs
                                                                        §   total dollar impact (recoveries, restitutions, fines,
                                                                            asset forfeiture),
A second way we gauge our impact is by tracking the
                                                                        §   administrative sanctions, and
outcomes of our audits and investigations. Many of these
                                                                        §   OIG Hotline complaints.
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.




                                                               22
PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
PERFORMANCE MEASURES                                                                    FY 2012        FY 2013      FY 2013    FY 2013
                                                                                        ACTUAL         TARGET       2nd Half   Full Year
                                                                                                                    ACTUAL     ACTUAL
OIG direct resources dedicated to critical-risk and high-impact                          97.7%           92%         96.3%      96.6%
activities.

Audit recommendations where management decisions are                                     96.8%           90%         93.6%      94.4%
achieved within 1 year.


Audits initiated where the findings and recommendations are                              91.9%           90%         100%       100%
presented to the auditee within established or agreed-to
timeframes.
Closed investigations that resulted in a referral for action to                          88.8%           75%         84.8%       86%
USDOJ, State, or local law enforcement officials, or relevant
administrative authority.


Closed investigations that resulted in an indictment, conviction,                        71.2%           70%          81%       79.7%
civil suit or settlement, judgment, administrative action, or
monetary result.


RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                        FY 2012       FY 2013       FY 2013    FY 2013
PERFORMANCE MEASURES                                                                    ACTUAL        TARGET        2nd Half   Full Year
                                                                                                                    ACTUAL     ACTUAL

Notify USDA agency managers of significant audit findings
related to Recovery Act programs along with recommendations                              100%           100%        N/A**       N/A**
for corrective action within 30 days after identification.
Respond to Recovery Accountability and Transparency Board-
sponsored requests and projects within established schedules or                         94.4%            85%         100%       100%
agreed-to timeframes.
An investigative determination to accept or decline an allegation
of whistleblower retaliation is made within 180 days of receipt.                         100%           100%          N/A        N/A

Whistleblower retaliation allegations are investigated and
reported within 180 days of receipt.*                                                     N/A            75%          N/A        N/A

Timely and accurate monthly Recovery Act funds reports
submitted to the Recovery Board.                                                         100%            95%         100%       100%
* No Recovery Act whistleblower retaliation allegations were received or investigated.
** All remaining Recovery Act audits are nearing issuance of final reports. No further notifications anticipated.




                                                                                   23
Recognition of OIG Employees by the Secretary and IG Community

Secretary’s Honor Award (announced in September 2013, presented in December 2013)

       Secretary’s Award for Ensuring Access to Safe and Nutritious Food

              Food Safety Audit Team
              Audit

       Secretary’s Award for Personal and Professional Excellence

              North Carolina Crop Insurance Investigative Team
              Investigations

       Silver Presidential Volunteer Service Award
               Aaron Oatley
               Audit

Council of the Inspectors General on Integrity and Efficiency (CIGIE) Awards (announced in September 2013,
presented in November 2013)

       Award for Excellence

              Beef Safety Testing Team
              Audit

              North Texas SNAP Prosecution Team
              Investigations

              SNAP Fraud Audit and Investigations Team
              Combined

              Controls over the Grant Management Process of the Office of Advocacy and Outreach
              Audit

       Gaston L. Gianni, Jr., Better Government Award

              Organic Fertilizer Investigation Team
              Investigations




                                                      24
SUMMARY OF AUDIT ACTIVITIES—APRIL-SEPTEMBER 2013
                                                            Audits Performed by OIG                                                        17
                                                            Audits Performed Under the Single                                               0
                 Reports Issued: 17
                                                            Audit Act
                                                            Audits Performed by Others                                                     0
                                                            Number of Reports                                                            19
       Management Decisions Made: 157
                                                            Number of Recommendations                                                   157
                                                                                                                                         a, b
                                                            Total Questioned/Unsupported Costs                                     $424.2
         Total Dollar Impact (Millions) of
                                                               -Recommended for Recovery                        $12.2
         Management-Decided Reports:
                                                               -Not Recommended for Recovery                    $412.0
                  $911.4 million                                                                                                               xxx
                                                            Funds to Be Put to Better Use                                           $487.2
a
 These were the amounts the auditees agreed to at the time of management decision.
b
 The recoveries realized could change as auditees implement the agreed-upon corrective action plans and seek recovery of amounts recorded as
debts due the Department.


SUMMARY OF INTERIM REPORTS ISSUED—APRIL-SEPTEMBER 2013

OIG uses Interim Reports to alert management to immediate issues during the course of an ongoing audit assignment. Typically,
they report on one issue or finding requiring management’s attention. OIG did not issue any Interim Reports during this reporting
period.




                                                                              25
SUMMARY OF INVESTIGATIVE ACTIVITIES—APRIL-SEPTEMBER 2013
                                                                Cases Opened                                                           195
                 Reports Issued: 155
                                                                Cases Referred for Prosecution                                         240
                                                                Indictments                                                            539
                                                                            a
                                                                Convictions                                                            253
               Impact of Investigations
                                                                Searches                                                               210
                                                                Arrests                                                                586
                                                                                       b
                                                                Recoveries/Collections                                                 $1.1
                                                                            c
                                                                Restitutions                                                          $29.8
                                                                      d
                                                                Fines                                                                  $0.5
                                                                                  e
       Total Dollar Impact (Millions): $38.9                    Asset Forfeitures                                                      $5.0
                                                                                    f
                                                                Claims Established                                                     $2.3
                                                                                g
                                                                Cost Avoidance                                                         $0.2
                                                                                         h
                                                                Administrative Penalties                                                 $0
                                                                Employees                                                                41
           Administrative Sanctions: 370
                                                                Businesses/Persons                                                     329
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
therefore, the 253 convictions do not necessarily relate to the 539 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




                                                                                 26
Full FY 2013 Results in Key Categories—October 1, 2012-September 30, 2013

SUMMARY OF AUDIT ACTIVITIES1
Reports Issued:
Number of Reports                                                                                   54
Number of Recommendations (340 program improvement, 63
                                                                                                   403
monetary)
Management Decisions Made:
Number of Reports                                                                                   50
Number of Recommendations (315 program improvement, 41
                                                                                                   356
monetary)
Total Dollar Impact (Millions) of Management-Decided Reports:                                 $1050.3
Questioned/Unsupported Costs                                                                    $439.6
Funds To Be Put To Better Use                                                                   $610.7



SUMMARY OF INVESTIGATIONS ACTIVITIES
Reports Issued                                                                                     335

Indictments                                                                                        917
Convictions                                                                                        551
Arrests                                                                                            843
Total Dollar Impact (Millions)                                                                  $122.7
Administrative Sanctions                                                                           562




1
  In April 2013, we received a complaint that questioned the quality of Report 01099-0001-21, Beef Research and Promotion Board
Activities, issued on March 29, 2013. As a result, in June 2013, we processed the complaint under the guidelines of the Data Quality
Act (Section 515 of Public Law 106-554). In summary, we determined that the audit team did not perform all necessary procedures
related to the statistical sample. Also, certain aspects of our quality control system were not fully completed. Consequently, we
removed the original report from our website. We then re-engaged with AMS and conducted additional audit and quality control
procedures from July through September 2013 to assess the finding and recommendations in the March 29, 2013 report. We plan
to publish a revised report based on the recommendations resulting from this re-engagement. The FY 2013 annual statistics were
reduced by one report and two program improvement recommendations due to the removal of the audit cited.
                                                                    27
INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS FROM APRIL 1, 2013 THROUGH
SEPTEMBER 30, 2013
                                                                                                                    a
                                                                                                        UNSUPPORTED
                                                                          QUESTIONED COSTS AND           COSTS AND
                  CATEGORY                                  NUMBER               LOANS                     LOANS
 Reports for which no management decision
                                      b                       9                       $684,082,890         $36,558,918
       had been made by April 1, 2013.
    Reports which were issued during the
                                                              5                       $143,469,876         $10,640,000
               reporting period.
Total reports with questioned costs and loans                 14                      $827,552,766         $47,198,918
                                                                     Recommended
                                                                                       $12, 173,387        $10,873,118
                                                                     for recovery
        Of the 14 reports, those for which                           Not
     management decision was made during the                  7      recommended       $412,027,011                $0
                reporting period.                                    for recovery
                                                                     Costs not
                                                                                         $2,698,997         $1,640,541
                                                                     disallowed
       Of the 14 reports, those for which no
    management decision has been made by the                  7                       $400,653,371         $34,685,259
            end of this reporting period.
        Total current reports for which no
     management decision was made within 6                    5                       $329,583,099         $34,685,259
                                    b
               months of issuance.
a
    Unsupported values are included in questioned values.
b
    Carried over from previous reporting periods.



INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                CATEGORY                                       NUMBER            DOLLAR VALUE
    Reports for which no management decision had been made by April 1,
                                       a                                          2                        $32,157,616
                                  2013.
           Reports which were issued during the reporting period.                 3                       $637,998,780
    Total reports with recommendations that funds be put to better use            5                       $670,156,396
                                                                                           Disallowed
                                                                                                          $487,173,760
      Of the 5 reports, those for which management decision was made                       costs
                                                                                  2
                          during the reporting period.                                     Costs not
                                                                                                                    $0
                                                                                           disallowed
     Of the 5 reports, those for which no management decision has been
                                                                                  3                       $182,982,636
                  made by the end of this reporting period.
    Total current reports for which no management decision was made
                                                    a                             1                        $25,779,197
                       within 6 months of issuance.
a
    Carried over from previous reporting periods.




                                                                     28
PROGRAM IMPROVEMENT RECOMMENDATIONS

A significant number of our audit recommendations carry no monetary value per se, but their impact can be
immeasurable in terms of safety, security, and public health. They can also contribute considerably toward economy,
efficiency, and effectiveness in USDA’s programs and operations. During this reporting period, we issued 112 program
improvement recommendations, and management agreed to implement a total of 137 recommendations that were
issued this period or earlier. Examples of those issued this period include the following (see the main text of this report
for a summary of the audits that prompted these recommendations):

    §   FSIS should ensure that swine slaughter plants comply with the Federal Meat Inspection Act and are penalized
        when they violate the Act.
    §   FNS should undertake an assessment of its food assistance programs to ensure that there is no overlap and
        duplication from these 15 individual programs.
    §   RMA should improve its prevented planting provisions to make them more cost-effective, encourage producers
        to plant a crop when possible, and make eligibility criteria more objective and clear.

AUDIT AND INVESTIGATIVE PEER REVIEWS

In June 2013, the Treasury Inspector General for Tax Administration completed a peer review of OIG’s investigation
organization. The report determined that OIG is in compliance with the quality standards for investigations established
by CIGIE and the Attorney General.

During the current semi-annual reporting period, there were no audit peer reviews of OIG’s audit organization. OIG
received a grade of pass, the best evaluation an audit organization can receive, from our most recent peer review
report, issued by the Environmental Protection Agency-OIG in November 2012.




                                                             29
AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES FROM APRIL 1, 2013 THROUGH
SEPTEMBER 30, 2013
    AUDIT                                                               QUESTIONED       UNSUPPORTED
 TOTALS BY         AUDIT        RELEASE                                  COSTS AND        COSTS AND       FUNDS TO BE PUT
   AGENCY         NUMBER         DATE              TITLE                   LOANS            LOANS          TO BETTER USE
 Agricultural   01601-0002-   07/15/13    National Organic
 Marketing      32                        Program–Organic Milk
  Service: 1                              Operations
                02703-0001-   08/14/13    Agricultural Research
 Agricultural
                12                        Service’s Contract
  Research
                                          Closeout Process
  Service: 1
                                          (Recovery Act)
Farm Service    03401-        07/02/13    Fiscal Year 2012             $17,400,000
Agency: 1       0002-11                   Farm Service
                                          Agency Farm
                                          Assistance Program
                                          Payments
                27001-        06/13/13    Overlap and
                0001-10                   Duplication in FNS’
                                          Nutrition Programs
                27601-0001-   07/31/13    FNS: Controls for                $70,600,000                          $6,700,000
  Food and      31                        Authorizing
  Nutrition                               Supplemental
  Service: 3                              Nutrition Assistance
                                          Program Retailers
                27703-0001-   06/13/13    Recovery Act Impacts               $470,272
                22                        on Supplemental
                                          Nutrition Assistance
                                          Program–Phase Two
                24601-0001-   05/09/13    FSIS–Inspection and
 Food Safety    41                        Enforcement Activities
      and                                 at Swine Slaughter
  Inspection                              Plants
   Service: 1

                61701-0001-   09/27/13    Classification
  Homeland
                32                        Management
 Security and
  Emergency
Coordination:
      1
                92501-0001-   09/27/13    Review of the
                12                        Procurement
Management                                Operations
 Services: 1


                50024-0003-   08/22/13    Fiscal Year 2012
                11                        Executive Order
                                          13520, Reducing
                                          Improper Payments,
                                          High Dollar
                                          Overpayment Report
Multi-
                                          Review
Agency: 3       50024-0003-   06/10/13    Review of the
                13                        Department’s Travel
                                          Card Data
                50601-0002-   07/31/13    FSIS’ and AMS’ Field-            $11,740,000      $10,640,000
                31                        Level Workforce
                                          Challenges



                                                                  30
    AUDIT                                                                                QUESTIONED      UNSUPPORTED
 TOTALS BY               AUDIT             RELEASE                                        COSTS AND       COSTS AND       FUNDS TO BE PUT
   AGENCY               NUMBER              DATE                    TITLE                   LOANS           LOANS          TO BETTER USE
   Natural            10099-0001-        09/27/13           NRCS’ Administration
 Resources            31                                    of Easement Programs
Conservation                                                in Wyoming
  Service: 1
                      11401-0005-        09/27/13           SSAE No. 16 Report on
                      11                                    Controls at the
                                                            National Finance
                                                            Center for October 1,
                                                            2012, to July 31, 2013
                      11401-0006-        09/27/13           Agreed-Upon
Office of the         11                                    Procedures: Employee
Chief                                                       Benefits,
Information                                                 Withholdings,
Officer: 2                                                  Contributions, and
                                                            Supplemental
                                                            Semiannual
                                                            Headcount Reporting
                                                            Submitted to the
                                                            Office of Personnel
                                                            Management
   Risk               05601-0001-        09/03/13           RMA: Controls Over             $43,259,604                        $480,795,341
Management            31                                    Prevented Planting
 Agency: 1
                      09703-0002-        08/22/13           Recovery Act:                                                     $150,503,439
Rural Utilities       32                                    Broadband Initiatives
 Service: 1                                                 Program–Post Award
                                                            Controls
                      Grand Total: 17                                                     $143,469,876      $10,640,000       $637,998,780
a
    Unsupported values are included in questioned values.




                                                                                    31
NO MANAGEMENT DECISION
In total, OIG has eight audits without management decision. Their details are provided in the tables below:

NEW FOR THIS REPORTING PERIOD
                                                                        TOTAL VALUE AT         AMOUNT WITH NO
                 DATE                                                    ISSUANCE (in          MGMT DECISION (in
 AGENCY
                ISSUED                  TITLE OF REPORT                     dollars)               dollars)
 FS           03/28/13        Recovery Act—Forest Service                      $91,773,548              $58,229,927
                              Hazardous Fuels Reduction and
                              Ecosystem Restoration on Non-
                              Federal Lands (08703-0005-SF)
 Multi-       11/15/12        FY 2012 Federal Information Security                       $0                       $0
 agency                       Management Act Report
                              (50501-0003-12)
              03/28/13        Effectiveness of the Department’s                          $0                       $0
                              Recent Efforts to Enhance
                              Agricultural Trade (50601-0001-22)
 Total New For This Reporting Period: 3


The audits in the following table are still pending agency action or are under judicial, legal, or investigative proceedings. Details on
the recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies have
been informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been
completed. The appropriate Under the Assistant Secretaries have been notified of those audits without management decisions.


AUDIT REPORTS PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                                                        TOTAL VALUE AT         AMOUNT WITH NO
                   DATE                                                  ISSUANCE (in          MGMT DECISION (in
  AGENCY          ISSUED                 TITLE OF REPORT                    dollars)               dollars)
 FS            07/03/12     American Recovery and                                 $406,534                 $317,741
                            Reinvestment Act—Forest Service
                            Capital Improvement and
                            Maintenance Projects—Trail
                            Maintenance and Decommissioning
                            (08703-0004-SF)
 FSA          02/02/09      Hurricane Relief Initiatives:                       $1,866,412                 $427,276
                            Livestock and Feed Indemnity
                            Programs (03601-0023-KC)
 Multi-       11/15/11      FY 2011 Federal Information                                  $0                       $0
 agency                     Security Management Act Report
                            (50501-0002-12)
 RMA          03/04/09      RMA’s 2005 Emergency Hurricane                   $217,256,417              $217,256,417
                            Relief Efforts In Florida
                            (05099-0028-At)
              09/07/11      Citrus Indemnity Payments                          $44,059,385              $44,059,385
                            Resulting from 2005 Florida
                            Hurricanes (05099-0029-At)
 Total Previously Reported But Not Yet Resolved: 5




                                                                   32
AUDITS WITHOUT MANAGEMENT DECISION—NARRATIVE FOR NEW ENTRIES

American Recovery and Reinvestment Act—Forest Service Hazardous Fuels Reduction and Ecosystem Restoration on
Non-Federal Lands (08703 0005 SF), Forest Service, issued March 28, 2013

OIG found that FS lacked the necessary controls to ensure that grant funds were both properly accounted for and used
for their intended purpose—not just for Recovery Act grants, but for the entire grant program. We also found that FS
did not enhance its existing controls, despite the Recovery Act’s requirements for greater transparency and
accountability. We accepted management decision for 53 of the 62 recommendations. In the 9 recommendations
without management decision, OIG recommended that FS recover unallowable and unsupported costs. While FS
generally concurs with the recommendations, FS is conducting its own review of the challenged costs. To reach
management decision, FS will need to provide OIG a copy of the bill for collection for the amount owed to the
Government and show that the amount has been entered as a receivable on the agency’s accounting records.

FY 2012 Federal Information Security Management Act Report (FISMA) (50501-0003-12), issued November 15, 2012

OIG found that, although USDA has made improvements in its information technology (IT) security over the last decade,
many longstanding weaknesses remain. In FYs 2009, 2010, and 2011, OIG made 43 recommendations for improving the
overall security of USDA’s systems, but only 14 of these have been closed for final action. OIG has reported many of
these remaining recommendations since 2001, when we first reported a material weakness in the design and
effectiveness of USDA’s overall IT security program. The 2012 report contained six additional recommendations, and we
accepted management decisions on four of the new recommendations.

Effectiveness of FAS’ Recent Efforts to Implement Measurable Strategies Aligned to the Department’s Trade 
Promotion and Policy Goals (50601-0001-22), issued March 28, 2013

In the one recommendation without management decision, OIG recommended that FAS improve the linkage of billions
of dollars of U.S. agricultural exports with jobs created by validating the number of rural jobs created due to these
exports. FAS agreed to approach the Office of the Chief Economist to develop the data needed to independently
measure the economic benefits increased trade has to the rural sector. In order to reach management decision, FAS
needs to explain how it will use the data to periodically validate the performance measures and to include a timeline for
when these efforts will be made.




                                                           33
INDICTMENTS AND CONVICTIONS

From April 1, 2013 through September 30, 2013, OIG completed 155 investigations. We referred 240 cases to Federal, State, and
local prosecutors for their decision.

During the reporting period, our investigations led to 539 indictments and 253 convictions. The period of time to obtain court action
on an indictment varies widely; therefore, the 253 convictions do not necessarily relate to the 539 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $38.9 million. The following is a breakdown, by agency, of indictments and convictions for the reporting period.
INDICTMENTS AND CONVICTIONS—October 2012-March 2013
 AGENCY                                          INDICTMENTS                    CONVICTIONS*
                   ARS                                          0                                 1
                  APHIS                                         76                                13
                   FAS                                          0                                 1
                   FNS                                         400                               198
                    FS                                          3                                 2
                   FSA                                          17                                13
                   FSIS                                         9                                 10
                  GIPSA                                         0                                 2
               Multi-Agency                                     0                                 2
                  NRCS                                          2                                 0
                   RBS                                          8                                 0
                   RHS                                          21                                10
                  RMA                                           3                                 1
                   RUS                                          0                                 0
                 TOTAL                                         539                               253
 * This category includes pretrial diversions.




                                                                     34
OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG hotline serves as a national intake point for reports from both employees and the general public of suspected incidents of
fraud, waste, mismanagement, and abuse in USDA programs and operations. During this reporting period, the hotline received
2,269 complaints, which included allegations of participant fraud, employee misconduct, and mismanagement, as well as opinions
about USDA programs. The following tables are a summary of the Hotline complaints for the second half of FY 2013.

NUMBER OF COMPLAINTS RECEIVED
 TYPE                                                                                                  NUMBER
 Employee Misconduct                                                                                         168
 Participant Fraud                                                                                         1,787
 Waste/Mismanagement                                                                                         236
 Health/Safety Problem                                                                                        25
 Opinion/Information                                                                                          52
 Bribery                                                                                                       0
 Reprisal                                                                                                      1
 Total Number of Complaints Received                                                                       2,269



DISPOSITION OF COMPLAINTS RECEIVED
 METHOD OF DISPOSITION                                                                                 NUMBER
 Referred to OIG Audit or Investigations for Review                                                          131
 Referred to Other Law Enforcement Agencies                                                                    7
 Referred to USDA Agencies for Response                                                                      478
 Referred to FNS for Tracking                                                                              1,359
 Referred to USDA or Other Agencies for Information—No Response                                              267
 Needed
 Filed Without Referral—Insufficient Information                                                              17
 Referred to State Agencies                                                                                   10




                                                                 35
FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS FOR THE PERIOD APRIL 1, 2013
THROUGH SEPTEMBER 30, 2013
                CATEGORIES                                                         TYPE                               NUMBER
                                                        FOIA/PA Requests Received                                       65
                                                        Granted                                                         2
 FOIA/PA Requests Received/Processed                    Partially Granted                                               14
                                                        Not Granted                                                     21
                                                        Total FOIA/PA Requests Processed                                41
                                                        No Records Available                                            9
                                                        Referred to Other Agencies                                      3
                                                        Requests Denied in Full Exemption 5                             7
                                                        Requests Denied in Full Exemption 7(A)                          1
                                                        Requests Denied in Full Exemption 7(C)                          12
               Reasons for Denial                       Request Withdrawn                                               0
                                                        Fee-Related                                                     1
                                                        Not a Proper FOIA Request                                       2
                                                        Not an Agency Record                                            0
                                                        Duplicate Request                                               0
                                                        Other                                                           2
       Requests for OIG Reports from                    Received                                                        1
      Congress and Other Government                     Processed                                                       1
                 Agencies
                                                       Appeals Received                                                 4
                                                       Appeals Processed                                                6
                                                       Completely Upheld                                                3
                   Appeals                             Partially Reversed                                               1
                                                       Completely Reversed                                              2
                                                       Requests Withdrawn                                               0
                                                       Other                                                            2
                                                    OIG Reports/Documents Released in Response to                       6
                                                    Requests
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 26 audit reports were posted online on the OIG website: http://www.usda.gov/oig




                                                                            36
Abbreviations
 ABBREVIATION   FULL NAME                                       ABBREVIATION   FULL NAME
 AMS            Agricultural Marketing Service                  OMB            Office of Management and Budget
 APHIS          Animal and Plant Health Inspection              OPM            Office of Personnel Management
                Service                                         OPPM           Office of Procurement and
 ARS            Agricultural Research Service                                  Property Management
 BIP            Broadband Initiatives Program                   PA             Privacy Act
 CIGIE          Council of Inspectors General on                PDSD           Personnel and Document Security
                Integrity and Efficiency                                       Division
 CMA            Computer Matching Agreements                    PHIS           Public Health Information System
 DATA           Digital Accountability and Transparency         RBS            Rural Business Cooperative Service
                Act of 2013                                     POD            Procurement Operations Division
 DHS            Department of Human Services                    RD             Rural Development
 DNS            Domain Name System                              Recovery Act   American Recovery and
 EBT            electronic benefits transfer                                   Reinvestment Act of 2009
 FAQ            Frequently asked questions                      RMA            Risk Management Agency
 FAEC           Federal Audit Executive Council                 RUS            Rural Utilities Service
 FAS            Foreign Agricultural Service                    SARC           Semiannual Report to Congress
 FBI            Federal Bureau of Investigation                 SIGAR          Special Inspector General for
 FMIA           Federal Meat Inspection Act                                    Afghanistan Reconstruction
 FNS            Food and Nutrition Service                      SNAP           Supplemental Nutrition Assistance
 FOIA           Freedom of Information Act                                     Program
 FS             Forest Service                                  TANF           Temporary Assistance for Needy
 FSA            Farm Service Agency                                            Families
 FSAN           Financial Statement Audit Network               USDA           U.S. Department of Agriculture
 FSIS           Food Safety and Inspection Service              WIC            Special Supplemental Nutrition
 FY             fiscal year                                                    Program for Women, Infants, and
 GAO            Government Accountability Office                               Children
 HUD            U.S. Department of Housing and Urban
                Development
 IG             Inspector General
 IRS            Internal Revenue Service
 IRS-CI         Internal Revenue Service-Criminal
                Investigation
 IT             information technology
 NASS           National Agricultural Statistics Service
 NGO            non-governmental organization
 NIFA           National Institute of Food and
                Agriculture
 NIST           Institute of Standards and Technology
 NOP            National Organic Program
 NRCS           Natural Resources Conservation Service
 OCFO           Office of the Chief Financial Officer
 OIG            Office of Inspector General




                                                           37
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS
REPORTING PERIOD (137 TOTAL)

        §    FSIS should ensure that swine slaughter plants comply with the Federal Meat Inspection Act and are penalized when
             they violate the Act.
        §    FNS should undertake an assessment of its food assistance programs to ensure that there is no overlap and duplication
             from these 15 individual programs.
        §    RMA should improve its prevented planting provisions to make them more cost-effective, encourage producers to
             plant a crop when possible, and make eligibility criteria more objective and clear.

OIG MISSION

OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These programs encompass a
broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.

OIG STRATEGIC GOALS

We have focused nearly all of our audit and investigative direct resources on our three goals:

        §    Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural
             and Departmental resources.
        §    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
        §    Support USDA in implementing its management improvement initiatives.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
